<html>
<title> - SERVING STUDENTS AND FAMILIES THROUGH CHILD NUTRITION PROGRAMS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                     SERVING STUDENTS AND FAMILIES
                    THROUGH CHILD NUTRITION PROGRAMS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 15, 2015

                               __________

                            Serial No. 114-9

                               __________

  Printed for the use of the Committee on Education and the Workforce

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-088 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001          
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 15, 2015...................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     4
    Scott, Hon. Robert C., Ranking Member, Committee on Education 
      and the Workforce..........................................     6
        Prepared statement of....................................     7

Statement of Witnesses:
    Bauscher, Julia, President, School Nutrition Association, 
      Director, School and Community Nutrition Services, 
      Jefferson County Public School District, Louisville, KY....    15
        Prepared statement of....................................    17
    Krey, Kathy, Director of Research and Assistant Research 
      Professor, Texas Hunger Initiative, Baylor University, 
      Waco, TX...................................................    26
        Prepared statement of....................................    27
    McAuliffe, Dorothy S., First Lady of Virginia, Office of the 
      Governor, Commonwealth of Virginia, Richmond, VA...........    20
        Prepared statement of....................................    22
    Storen, Duke, Senior Director, Research, Advocacy, and 
      Partner Development, Share Our Strength, Washington, DC....    10
        Prepared statement of....................................    12

Additional Submissions:
    Adams, Hon. Alma S., a Representative in Congress from the 
      state of North Carolina, question submitted for the record 
      to:
        Ms. Bauscher.............................................   138
        Dr. Krey.................................................   140
        Mrs. McAuliffe...........................................   142
        Mr. Storen...............................................   144
    Response to questions submitted:
        Ms. Bauscher.............................................   152
        Mrs. McAuliffe...........................................   149
        Mr. Storen...............................................   151
    Mrs. Krey:
        The Importance of Nutrition for Learning and Well-being..   109
        Responses to questions submitted for the record..........   147
    Mr. Scott:
        American Journal of Preventative Medicine................    75
        New School Meal Regulations Increase Fruit Consumption 
          and Do Not Increase Total Plate Waste..................    83
        Perceived Reactions of Elementary School Students to 
          Changes in School Lunches After Implementation of the 
          United States Department of Agriculture's New Meals 
          Standards: Minimal Backlash, but Rural and 
          Socioeconomic disparities Exist........................    89
        Letter from the Academy of Nutrition and Dietetics.......    97
        Prepared statement of National WIC Association, NWA......    99
        Improvements in School Lunches Result in Healthier 
          Options for Millions of U.S. Children..................   114
        Ending childhood hunger: A social impact analysis........   117
        Letter dated April 14, 2015 from Mars Incorporated.......   127
        Prepared statement of the Food Research and Action Center 
          (FRAC).................................................   131
    Wilson, Hon. Frederica S., a Representative in Congress from 
      the state of Florida                                          134
        Prepared statement of....................................   135
 
              SERVING STUDENTS AND FAMILIES THROUGH CHILD
                           NUTRITION PROGRAMS

                              ----------                              


                       Wednesday, April 15, 2015

                       House of Representatives,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The committee met, pursuant to call, at 10:02 a.m., in Room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Foxx, Roe, Thompson, 
Walberg, Salmon, Guthrie, Rokita, Heck, Messer, Brat, Carter, 
Bishop, Grothman, Russell, Curbelo, Stefanik, Allen, Scott, 
Hinojosa, Courtney, Fudge, Sablan, Pocan, and Takano.
    Staff present: Lauren Aronson, Press Secretary; Janelle 
Belland, Coalitions and Members Services Coordinator; Kathlyn 
Ehl, Legislative Assistant; Matthew Frame, Staff Assistant; Amy 
Raaf Jones, Director of Education and Human Resources Policy; 
Cristin Datch Kumar, Professional Staff Member; Nancy Locke, 
Chief Clerk; Daniel Murner, Deputy Press Secretary; Brian 
Newell, Communications Director; Krisann Pearce, General 
Counsel; Mandy Schaumburg, Education Deputy Director and Senior 
Counsel; Alissa Strawcutter, Deputy Clerk; Juliane Sullivan, 
Staff Director; Leslie Tatum, Professional Staff Member; 
Tylease Alli, Minority Clerk/Intern and Fellow Coordinator; 
Austin Barbera, Minority Staff Assistant; Kelly Broughan, 
Minority Education Policy Advisor; Denise Forte, Minority Staff 
Director; Scott Groginsky, Minority Senior Education Policy 
Advisor; Tina Hone, Minority Education Policy Director and 
Associate General Counsel.
    Chairman Kline. A quorum being present, the committee on 
Education and the Workforce will come to order.
    Well, good morning. Welcome to our guests. We have a very 
distinguished panel of witnesses today, including the First 
Lady of the Commonwealth of Virginia, Mrs. Dorothy McAuliffe.
    Mrs. McAuliffe, we are delighted to have you with us this 
morning as we discuss important policies affecting our nation's 
students and families.
    Healthy meals are vitally important to a child's education. 
It is just basic common sense that if a child is hungry, then 
he or she is less likely to succeed in the classroom and later 
in life. That is why our nation has long invested in services 
to provide low income students nutritious meals in schools. 
Those services are authorized through a number of laws, such as 
the Richard B. Russell National School Lunch Act and the Child 
Nutrition Act.
    In just a few short months, these laws and the programs 
they authorize will expire, including the National School Lunch 
and Breakfast Programs, the Supplemental Nutritional Program 
for Woman, Infants and Children, or WIC program, and several 
others.
    It is the responsibility of this committee and Congress to 
reauthorize these programs so that students and families 
receive the support they need in the most efficient and 
effective way. Why is that important? Because no child should 
go to school hungry. It is that simple.
    Today's discussion is not about whether we agree on this 
basic principle; I am confident we all do. Instead, our 
discussion today is about beginning a larger effort we will 
continue in the coming months to ensure the best policies are 
in place to help us reach this goal.
    Last week, I had an opportunity to tour a school lunch room 
at the Prior Lake High School in Savage, Minnesota. Students 
and faculty described what's working and what isn't working in 
federal nutrition programs.
    As a result of our conversation, two important realities 
are abundantly clear. First, our school nutrition professionals 
are dedicated men and women doing the best they can under 
difficult circumstances and no one should question their 
commitment to providing students with nutritious meals.
    Unfortunately, rules and regulations put in place in recent 
years have made their jobs harder, not easier. The cost of the 
lunch and breakfast programs for schools are going up, yet 
fewer meals are being served. In fact, the number of children 
participating in these programs is declining more rapidly than 
any period over the last 30 years.
    Second, as we reauthorize these programs, we have to 
provide more flexibility at the state and local levels. Those 
working in our schools and cafeterias recognize that this has 
to be a priority. Even students understand the urgent need for 
more flexibility.
    During my visit to Prior Lake High School, I talked with a 
number of students about their school lunch program. Right now, 
the federal government determines the number of calories, 
vegetables, and grains that are served to students, which means 
Washington is dictating how much food every child is served at 
every school meal. This is one reason why the students in this 
school are urging the school to drop out of the program.
    Many children are bringing food from home or buying more 
food because the portion sizes served at school are too small 
for a full meal. As one student, Perina Svigem noted, ``A lot 
of times, we are going back and getting junk food, not healthy 
food.''
    This isn't what these children want, this isn't what their 
parents and school administrators want, and it is not what we 
want either. We have to find a better way forward, one that 
continues our commitment to providing nutritious meals for 
America's students while giving state and school leaders the 
flexibility they need to make it a reality.
    That is why we are delighted to have you here today, Mrs. 
McAuliffe. Through your work, you are demonstrating that 
promoting healthy lifestyles is not just a federal priority, 
but a state and local priority, as well.
    Often we are told we need more federal involvement because 
states can't be trusted to help those in need. But through your 
leadership, you are showing states can take the lead on tough 
issues in partnership with the federal government.
    Again, I would like to thank all of our witnesses for 
participating in today's hearing, and working with us to 
strengthen child nutrition support.
    With that, I will now recognize the committee's ranking 
member, my colleague, Congressman Scott from the Commonwealth 
of Virginia for his opening remarks.
    [The statement of Chairman Kline follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. Scott. Thank you, Mr. Chairman, for holding this 
hearing, and I look forward to examining the continuum of 
federal child nutrition programs which are the lifelines for 
approximately 40 million children who rely on them for healthy 
food every day.
    I would like to extend my thanks to all of the witnesses, 
but especially the First Lady of my home state of Virginia, 
Dorothy McAuliffe. She has been focusing not only on ending 
childhood hunger, but also improving access to Virginia's fresh 
and locally-grown agricultural commodities. This dual goal 
helps children, supports our farmers and strengthens local 
economies.
    More than 60 years ago, through the enactment of the first 
federal child nutrition program, the National School Lunch Act 
of 1946, Congress recognized that feeding hungry children was 
not just a moral imperative but also an imperative for the 
health and security of our nation.
    Today, a majority of the American public school students, 
51 percent, are eligible for free and reduced school lunch 
prices. According to the latest USDA data, 15.8 million, or 
over 21 percent of children live in households facing a 
constant struggle against hunger. The rates are nearly double 
for African-American children at almost 40 percent, and 
significantly higher for Hispanic children at almost 30 
percent.
    The continuum of child nutrition programs and policies that 
we will be discussing today are vital to the long-term 
successes of our nation's children and, through them, our 
nation itself. Through WIC prenatal programs to school and 
summer meals and child care food programs, participation in 
these programs has resulted in positive health outcomes for low 
income children and are 4:1 return on investment. For example, 
WIC saves over $4 for every $1 invested in the program due to 
fewer low birth-weight and pre-term babies, which costs our 
nation over $26 billion a year.
    Hunger is linked to lower student achievement and poorer 
behavioral outcomes. These programs are powerful tools in 
providing greater economic opportunities for at-risk youth and 
helping them break free of the tragic cycle of poverty.
    While access to food is vitally important, equally 
important is access to nutritious, high-quality food. But 30 
million children rely on the national school lunch and 
breakfast programs. Students consume up to half of their daily 
calories while at school, and, for many children, school-based 
meals are their primary source of nutrition.
    Foods that are too high in fat and sugar have been linked 
to weaker educational and behavioral outcomes. They also lead 
to childhood obesity and long-term health consequences as 
adults, including heart disease, hypertension and diabetes. 
Approximately 10 percent of our nation's health care spending 
go towards treating conditions related to obesity and unhealthy 
weight.
    To address these challenges in 2010, Congress enacted the 
Healthy Hunger-Free Kids Act. In addition to expanding access 
to child nutrition programs, the law also updated and improved 
the nutritional standards for foods served to our children, 
standards that had not been revised in over 15 years.
    Most importantly, the new standards are based on scientific 
evidence, not politics or fiscal bottom lines. They include 
weekly limits on calories, sugar, fat and sodium, require 
fruits and vegetables at every meal and incorporate whole 
grains. These changes are not promoting an exotic diet fad; 
they conform to the healthy eating habits that most of us in 
this room try to follow every day.
    In the vast majority of districts, 93 percent across the 
country, are successfully implementing the new health standards 
today and students are eating more fruit and vegetables, not 
just at school, but also outside of school, too.
    As we focus on healthier foods for children, we cannot 
ignore that child nutrition is a national security issue. 
According to Mission Readiness, a group of retired officers who 
support healthy meal standards, 25 percent of young Americans 
are too overweight to enlist in our nation's military.
    So I am pleased that today we have an opportunity to 
discuss the scope and impact of federal child nutrition 
programs, and, hopefully, ways to improve and strengthen them. 
And, as we move through this process, we must keep in mind that 
the overarching goal of these programs is to provide children 
with healthy foods that can support them as they learn and 
grow. That, in turn, supports our national interests and long-
term economic prosperity.
    Thank you, Mr. Chairman, and I yield back.
    [The statement of Mr. Scott follows:]

 Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Ranking Member, 
                Committee on Education and the Workforce

    Good morning and thank you, Chairman Kline, for holding this 
hearing today. I look forward to examining the continuum of federal 
child nutrition programs, which are lifelines for the approximately 40 
million children who rely on them every day for healthy food.
    I would like to extend my thanks to all of the witnesses, but I 
must extend a special welcome to the First Lady of my home state of 
Virginia - Dorothy McAuliffe. Mrs. McAuliffe has been focusing not only 
on ending childhood hunger, but also on improving access to Virginia's 
fresh and locally grown agricultural commodities. This dual goal helps 
children, supports our farmers and strengthens our local economies.
    More than 60 years ago, through enactment of the first federal 
child nutrition program--the National School Lunch Act of 1946--
Congress recognized that feeding hungry children was not just a moral 
imperative but also an imperative for the health and security of our 
nation.
    Today, a majority of American public school students (51 percent) 
are eligible for free and reduced price lunches. According to the 
latest USDA data, 15.8 million, or 21.6 percent, of children live in 
households facing a constant struggle against hunger. The rates are 
nearly double for African American children at 39 percent and 
significantly higher for Hispanic children at 29.5 percent. In my state 
of Virginia, 16.2 percent of children are food insecure.
    The continuum of federal child nutrition programs and policies that 
we will be discussing today are vital to the long-term success of our 
nation's children and, through them, our nation itself.
    From WIC's prenatal programs, to school and summer meals, and child 
care food programs, participation in these programs has resulted in 
positive health outcomes for low-income children and a 4 to 1 return on 
investment.
    Hunger is linked to lower student achievement and poorer behavioral 
outcomes. These programs are powerful tools in providing greater 
economic opportunities for at-risk youth, and helping them break free 
of the tragic cycle of poverty.
    While access to food is vitally important, equally important is 
access to nutritious, high-quality food. About 30 million children rely 
on the National School Lunch and Breakfast Programs. Students consume 
up to half of their daily calories while at school. For many children, 
school based meals are their primary source of nutrition.
    Foods that are too high in fat and sugar have been linked to weaker 
educational and behavioral outcomes. They also lead to childhood 
obesity and long term health consequences as adults, including heart 
disease, hypertension and diabetes. Approximately 10 percent of our 
nation's healthcare spending goes toward treating conditions related to 
obesity and unhealthy weight.
    To address these challenges, in 2010, Congress enacted the Healthy, 
Hunger-Free Kids Act. In addition to expanding access to child 
nutrition programs, the law also updated and improved the nutritional 
standards of the foods served to our children--standards that had not 
been revised in over 15 years. Most importantly, the new standards are 
based on scientific evidence, not politics or fiscal bottom lines. They 
include weekly limits on calories, sugar, fat and sodium, require 
fruits and vegetables at every meal and incorporate whole grains.
    These changes are not promoting an exotic diet fad. They conform to 
the healthy eating habits most of us in this room try to follow each 
day. And, the vast majority of school districts - 93 percent - across 
the country are successfully implementing the new healthy meals 
standards today, with students eating more fruit and vegetables not 
just at school, but outside of school too.
    As we focus on healthier food for children, we cannot ignore that 
child nutrition is also a national security issue. According to Mission 
Readiness, a group of retired officers who support the new healthy 
meals standards, 25 percent of young Americans are too overweight to 
enlist in our nation's military.
    I am pleased that today we will have an opportunity to discuss the 
scope and impact of federal child nutrition programs and hopefully, 
ways to improve and strengthen them. As we move through this process, 
we must keep in mind the overarching goal of these nutrition programs: 
to provide children with healthy foods that can support them as they 
learn and grow, which in turn supports our national interests and long-
term economic prosperity.
    I again thank everyone for being here this morning. With that, I 
yield back to the Chairman.
                                 ______
                                 
    Chairman Kline. Thank you, gentleman.
    Pursuant to committee rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record. And, without objection, the hearing 
record will remain open for 14 days to allow such statements 
and other extraneous material referenced during the hearing to 
be submitted for the official hearing record.
    I will now turn to introduction of our distinguished 
witnesses.
    And I recognize Mr. Brat to introduce our first witness.
    Mr. Brat. Thank you, Mr. Chairman.
    First of all, it is an honor to have our First Lady from 
Virginia with us today. Thank you for being here.
    I am going to introduce Mr. Duke Storen. Duke is a national 
policy expert with extensive experience researching and 
managing child nutrition programs. He hails from my Central 
Virginia district, as well, and serves as senior director of 
research for Share Our Strength.
    Share Our Strength is an organization that works to end 
childhood hunger in America by connecting kids to effective 
nutrition programs. It also teaches low income families how to 
shop and cook healthy food on a budget. Parents learn to shop 
strategically, using nutrition information to make healthier 
choices and cook good, affordable meals.
    Before coming to Share Our Strength, Mr. Storen worked at 
the USDA under two administrations managing child nutrition 
programs and leading efforts to improve access to them. He has 
22 years of experience fighting hunger and addressing poverty, 
and has consulted with state governments on using technology to 
improve program effectiveness and efficiency.
    Today he will share some ideas on how to make federal 
nutrition programs more effective and efficient.
    Pleasure to have you with us today.
    And, Mr. Chairman, I yield back. Thank you.
    Chairman Kline. Thank the gentleman.
    It is a pleasure to have you with us today.
    Now my pleasure to introduce Ms. Julia Bauscher. She is the 
president of the School Nutrition Association and the director 
of School and Community Nutrition Services for the Jefferson 
County Public Schools in Louisville, Kentucky.
    The Jefferson County Public School system serves an average 
of 36,000 breakfast and 60,000 lunches each day across 145 
locations. Under the leadership of Ms. Bauscher, the school 
system has implemented Farm-to-School, breakfast in the 
classroom, and at-risk supper program and, as it is eligible 
for community eligibility provision, has begun to implement 
this option, as well.
    Welcome. Glad to have you with us.
    And I now will recognize Mr. Scott again to introduce our 
next witness.
    Mr. Scott. Thank you, Mr. Chairman.
    And behalf of my colleague from Virginia, Mr. Brat, I am 
pleased to introduce Dorothy McAuliffe, the first lady of the 
Commonwealth of Virginia. In that position she has dedicated 
her efforts to eliminating childhood hunger and improving 
access to Virginia's fresh, locally-grown agricultural products 
for all of our citizens.
    She has identified food security and nutrition as key 
elements necessary for educational success and building healthy 
communities. She serves as the chair of the Commonwealth 
Council on Bridging the Nutritional Divide, which focuses on 
eliminating childhood hunger in Virginia, developing local 
agricultural markets and promoting community efforts to link 
locally-grown food, education, health and nutrition.
    She also serves as the governor's designee to the Virginia 
Council on the Interstate Compact on Educational Opportunity 
for Military Children, which assists in easing the transition 
of children of military families into Virginia schools.
    She also leads Virginia's efforts to encourage national 
service as a pathway for solving challenges in local 
communities and has long been devoted to arts and education, 
serving on the Boards of Trustees of The Kennedy Center and The 
Smithsonian Institute.
    She earned a B.A. from Catholic University of America and 
earned a law degree from Georgetown University Law Center.
    So we are pleased to welcome Mrs. McAuliffe.
    Chairman Kline. Thank the gentleman for the introduction 
and Mrs. McAuliffe for being with us here today.
    I will introduce today's final witness. There is no 
pejorative in that, you know. We are glad to have first witness 
and last witness.
    Dr. Kathy Krey is the director of Research and assistant 
research professor with the Texas Hunger Imitative at Baylor 
University in Waco, Texas. In her role with Texas Hunger 
Initiative, Dr. Krey oversees a diverse portfolio of research 
and evaluation projects on food security topics. Dr. Krey and 
her team measure and evaluate existing food programs with the 
goal of conducting advocacy and outreach to the community about 
the effectiveness of such programs.
    Additionally, Dr. Krey serves as an adjunct faculty member 
focusing on research methods and community sociology.
    Welcome, Dr. Krey. We are glad to have you here.
    I will now ask our witnesses to please stand and raise your 
right hand.
    [Witnesses sworn.]
    Let the record reflect the witnesses answered in the 
affirmative.
    Please, be seated.
    I can't ever expect a day when they wouldn't but there we 
go.
    [Laughter.]
    Before I recognize you now to provide your testimony, let 
me briefly explain our lighting system, which I know has been 
explained to you before but now you see the little boxes there 
in front of you.
    You have 5 minutes to present your testimony. When you 
begin, the light in front of you will turn green. When 1 minute 
is left, the light will turn yellow, and when your time is 
expired, the light will turn red. At that point, I will ask 
that you wrap up your remarks as best as you are able. I don't 
think I have ever gaveled down a witness for going a little bit 
too long in their statement. We want to hear what you have to 
say. But I do ask that you try to wrap up as best you can.
    On the other hand, I have gaveled down more than one of my 
colleagues for going past the 5 minutes because we want to try 
to give everybody a chance to participate, get their questions. 
Many of them, like me, have been visiting schools and we have 
got a lot of questions. So, please do the best you can on that 
little clock deal.
    And, now, we will start. I will recognize Mr. Storen.
    You are recognized for 5 minutes.

   STATEMENT OF MR. DUKE STOREN, SENIOR DIRECTOR, RESEARCH, 
    ADVOCACY, AND PARTNER DEVELOPMENT, SHARE OUR STRENGTH, 
                        WASHINGTON, D.C.

    Mr. Storen. Good morning, Chairman Kline, Ranking Member 
Scott and members of the committee. Thank you for holding this 
important hearing and inviting me to testify today.
    It is truly an honor, as ending hunger in America is my 
vocation, and it has been my life's work. I spent more than 20 
years in every sector and at all levels, local, state, and 
national and community organizations, state government, federal 
government, at university, technology consulting, and now at 
Share Our Strength, a national not-for-profit organization that 
has been on the front lines of fighting hunger and poverty for 
more than 30 years.
    At Share Our Strength, we invest in and implement data-
driven programs in all 50 states, and we conduct research to 
find and replicate solutions that are sustainable. Our No Kid 
Hungry campaign seeks to end childhood hunger in America by 
breaking down the barriers between programs like school 
breakfast and the Summer Food Service Psummer food service 
rogram, and the kids they are meant to serve.
    We create public-private partnerships, working with states 
and governors on both sides of the aisle to make the federal 
programs work more efficiently and more effectively. At the 
same time, we work to empower low income families to maximize 
their food resources.
    Why is this work so important? Because 16 million children 
in the United States struggle with hunger, and we cannot have a 
strong America with weak kids. Hunger might not be visible in 
America as it is in other parts of the world but it lives 
everywhere, and we have a responsibility to solve this problem.
    Hunger affects one in five children. Hunger is in your 
congressional district. Hunger is in our schools. For the first 
time, more than half of all the children coming to school are 
from low income families, and we know from our survey of 
teachers that three out of four teachers regularly see the face 
of hunger in their classrooms. And they understand the profound 
connection between hunger, behavior, and learning. Educators 
spend over $420 of their own money each year to help mitigate 
this problem.
    Childhood hunger is at its worst during the summer months, 
when school meals are no longer available. Over four in 10 low 
income parents report not having enough food to feed their 
families during the summer. And that is why an effective summer 
feeding program should be a priority in child nutrition 
reauthorization.
    But there is good news. Childhood hunger in America is a 
solvable problem, and the child nutrition programs are central 
to that solution, thanks to the support of you in Congress.
    For decades, public-private partnerships have been at the 
core of this solution, allowing community organizations, 
schools, faith-based groups and private companies to come 
together to address this issue. We know that none of these 
groups could solve the problem of childhood hunger alone, but 
by all of us working together, we can more efficiently leverage 
the existing resources.
    When kids can participate, the programs help them learn, 
become healthier, and grow into stronger adults. For example, 
the school breakfast program has a clear effect on academic 
achievement. A Deloitte social impact analysis shows that 
students who eat breakfast at school score 17.5 percent higher 
on math tests, they attend more days of school, and, together, 
these benefits make them 20 percent more likely to graduate and 
earn an average of $10,000 more per year.
    However, while these programs work for the kids that can 
participate, too many eligible children can't participate 
because of bureaucratic barriers, too much administrative 
burden, and, for the summer months, a program that has not been 
updated in over 40 years and serves fewer than one in six 
children in need.
    Through child nutrition reauthorization, Congress has an 
opportunity to make practical policy changes to fix the summer 
meals program and to make the other child nutrition programs 
even more efficient.
    It is unacceptable for any child in America to go hungry. 
And thanks to a bipartisan commitment from Congress, we have 
strong, sustainable programs in place to help struggling 
families feed their kids and get to work. But it is critical 
that we take this opportunity to create more efficiencies in 
the federal nutrition programs so that we can let kids be kids.
    Thank you for the opportunity to speak today, and I look 
forward to your questions.
    [The statement of Mr. Storen follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    Chairman Kline. Thank you, Mr. Storen.
    Ms. Bauscher, you are recognized for 5 minutes.

 STATEMENT OF MS. JULIA BAUSCHER, PRESIDENT, SCHOOL NUTRITION 
ASSOCIATION, DIRECTOR, SCHOOL AND COMMUNITY NUTRITION SERVICES, 
 JEFFERSON COUNTY PUBLIC SCHOOL DISTRICT, LOUISVILLE, KENTUCKY

    Ms. Bauscher. Chairman Kline, Ranking Member Scott, members 
of the committee, on behalf of the School Nutrition 
Association's 55,000 members, thank you for the opportunity to 
discuss the vital role of school meal programs.
    School nutrition professionals know the meals we provide 
can be the most nutritious meals that many children receive. We 
are passionate about supporting the 30 million students we 
serve every day. Our job is to nourish them for a successful 
school day and help them make healthier choices.
    Too often in schools across the country, students line up 
early at the cafeteria door on Monday mornings, hungry for 
school breakfast after a weekend without enough food to eat at 
home. We all know growling stomachs can easily distract 
students, affecting their academic achievement.
    With Congress' support, we have been working diligently to 
meet students' nutritional needs so they can give teachers 
their full attention. We are improving school lunch, expanding 
breakfast, and offering more afterschool snacks, suppers and 
summer meals so students have access to healthy meals, even 
when school is not in session.
    These supplementary meals not only ease food insecurity 
among students, but also strengthens school meal programs. The 
more meals and snacks we serve, the less likely our programs 
will become a financial burden on school district budgets.
    To ensure we contribute to healthier diets, SNA members 
support new regulations limiting calories and unhealthy fat in 
school meals. We are proud to offer more whole grains, larger 
servings and a wider variety of fruits and vegetables, and 
menus with less sodium.
    Schools are committed to making these healthy choices 
appealing with initiatives like Taste Test, Farm-to-School, and 
Cornell University's Smarter Lunchroom Techniques. In my 
district, we have steadily increased the quantity of local 
foods we serve, and work with a local chef to make nutritious 
recipes delicious.
    School nutrition professionals do not want to lose ground 
on these improvements. SNA will continue to support healthy 
changes. But Congress must address the sharp increase in cost 
and waste and the historic decline in student lunch 
participation under the new rules.
    For 30 years, the National School Lunch Program has grown 
steadily. Under the new rules, 1.4 million fewer students 
choose school lunch each day. Paid lunch participation has 
fallen by 15 percent, as students opt out of healthy school 
meals too often in favor of less nutritious alternatives.
    SNA is encouraged to see participation in the free meal 
category climb, with schools' access to the community 
eligibility provision. In the 96 schools in my district 
participating in CEP, daily lunch participation is up 8 
percent, and no one has to worry about embarrassing a student 
without lunch money.
    However, schools outside of high poverty areas do not 
qualify for CEP. These schools struggle the most with 
decreasing participation which reduces revenue when costs are 
rising. This year schools must absorb $1.2 billion in added 
costs as a result of the new rules. Even in my district where 
CEP has increased revenue, I am experiencing a decline in my 
program's reserve fund.
    School meal programs operate on extremely tight budgets. We 
must cover labor and benefits, supplies, equipment, indirect 
and other costs, leaving about $1.25 to spend on the food for 
each lunch tray. This year, each half pint of milk costs my 
program a nickel more than last year. That one nickel adds over 
$700,000 in new expenses.
    Meanwhile, a half-cup of fresh fruit, on average, costs me 
38 cents. This year, I reluctantly added juice back to my high 
school lunch menus as a cost saving measure. I haven't served 
juice at lunch in 15 years in an effort to serve more fiber-
rich, whole fruits.
    School meal programs can only cut so much. Without some 
relief, increased costs will impact more than the school meal 
programs; they will impact school district budgets as a whole. 
SNA has been supporting members in addressing all these 
challenges and will continue these efforts. We are working with 
partners, including Share Our Strength, on initiatives like 
best practices webinars and education sessions, and we are 
working with USDA on its Team Up for School Nutrition Success 
Initiative.
    We appreciate the committee's recognition of the importance 
of strong school nutrition programs and your consideration of 
the school cafeteria perspective. SNA's members will be a 
resource in ongoing discussions. We encourage all members of 
Congress to visit a school cafeteria and talk with school 
nutrition professionals about their unique successes and 
challenges.
    Thank you, again, for inviting me here today, and I am 
happy to answer any questions.
    [The statement of Ms. Bauscher follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Kline. Thank you, Ms. Bauscher.
    Mrs. McAuliffe, you are recognized.

STATEMENT OF MRS. DOROTHY S. MCAULIFFE, FIRST LADY OF VIRGINIA, 
  OFFICE OF THE GOVERNOR, COMMONWEALTH OF VIRGINIA, RICHMOND, 
                  VIRGINIA, DEMOCRATIC WITNESS

    Mrs. McAuliffe. Thank you. Thank you, Mr. Chairman, Ranking 
Member Scott and members of the committee for having me here 
today.
    I am so grateful for the opportunity to be here this 
morning as you consider the reauthorization of our federal 
childhood nutrition programs. We all agree that nothing is more 
important to our future as a nation than the health, education 
and well-being of our next generation.
    I know that much of your deliberations around this 
reauthorization will focus on what and how we serve our 
students and families through our nutrition programs. But my 
hope for my own testimony today is to make sure we remember why 
these programs are so important.
    I come to this, first and foremost, not as a nutritional or 
educational expert, but simply as a mom. Programs like CEP, 
school breakfast, and summer food service are the best way we 
can help ensure our children in need take full advantage of the 
educational opportunities our schools provide and our taxpayers 
invest in.
    In Virginia alone, we invest $5.5 billion in education. If 
we want to capture our return on that investment, we have to 
make sure our students are ready and able to learn when they 
are in our classrooms. It is both staggering and tragic to 
learn that, for the first time in at least 50 years, a 
majority, 51 percent, of public school children in the United 
States qualified for free and reduced lunches.
    In Virginia, over 300,000 of our children are food 
insecure. That's one in six of our children. The impact of 
hunger and malnutrition on children is devastating, well 
documented, and obvious to anyone who is a parent or works with 
children.
    For many children across the country and across Virginia, 
the meals they receive at school are the most consistent and 
best meal of the day. How do we prepare the next generation for 
the jobs of the 21st century if kids aren't strong, healthy and 
well educated? How can we expect our children to be hungry for 
knowledge if they are just plain hungry?
    I have heard from administrators and teachers all across 
our state who agree that a hungry child cannot learn. One was 
Susan Mele, the principal at Stewartsville Elementary School in 
the rural community of Bedford County. Behavioral problems, 
tardiness and absenteeism are just a few of the effects of 
hunger Susan has witnessed in her school.
    To respond to these challenges, Susan has combined 
universal school breakfast with responsive classroom, an 
approach to teaching that incorporates social-emotional 
learning as part of the academic day. Susan has seen an 
increase of 2 percentage points in overall student attendance, 
plus a significant decrease in trips to the office and tardy 
arrivals. And the result, Susan has seen a significant increase 
in academic performance.
    Pamela Smith is a principal at Highland View Elementary 
School in Bristol in Southwest Virginia. Unfortunately, in a 
school like Highland View where issues of neglect, trauma and 
mental health are far too prevalent, Pamela has to meet the 
most basic needs of her students before she and her staff can 
even begin to teach.
    Not only does Pamela make sure that her students start the 
day with a healthy meal, which she does with great success, but 
in many cases, the students need to be checked for bruises, be 
given clean clothes for the day, have their teeth and hair 
brushed, and just be loved and listened to.
    What Pamela and her teachers and staff are doing for these 
children is, frankly, above and beyond what any school should 
be tasked with managing. But it is the reality in which far too 
many must operate. Pamela has done a tremendous job of reaching 
the needs of her students during the school year, but an area 
of constant concern is the summer slide. After 9 months of 
working to bring students up to grade level, 3 months of hunger 
and unmet basic needs can set students back so far that it 
leaves Pamela feeling like her kids are trapped in a consistent 
cycle of one step forward and two steps back.
    Working within the current restrictions of the Summer Food 
Service Program, the challenge of reaching kids in a 
predominantly rural community has made it tough to put the 
brakes on the summer slide. As parents, we strive to be 
supportive of our children's intellectual growth by encouraging 
them to find their passions and pursue their dreams. It is a 
tragedy that not all children in Virginia and the United States 
look out on the world and see the endless possibilities that we 
know should be there for them. But that is exactly why we are 
here.
    It is our responsibility as public servants to be advocates 
for the children of this great nation. When three out of four 
public school teachers say that they have students who 
consistently come to school hungry, we have to ask ourselves 
how can we better serve the children who need us most.
    When students eat school breakfast, teachers report 
profound results. Seventy-three percent see kids paying better 
attention in class, 53 percent see improved attendance, and 48 
percent see fewer disciplinary problems.
    But with results like these, why are only half of the 
students who are eligible for free or reduced-price breakfast 
getting one? And why are only one in seven participating in the 
summer meals program?
    I am confident that your deliberations will uncover better 
ways to serve children and families through our federal 
nutrition programs. In Virginia, we look forward to partnering 
with you to find and implement those solutions. Working 
together, I know we can guarantee that all of our children are 
fed and fed well.
    Thank you very much. I look forward to the questions.
    [The statement of Mrs. McAuliffe follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Chairman Kline. Thank you very much.
    Dr. Krey, you are recognized.

STATEMENT OF DR. KATHY KREY, DIRECTOR OF RESEARCH AND ASSISTANT 
RESEARCH PROFESSOR, TEXAS HUNGER INITIATIVE, BAYLOR UNIVERSITY, 
                          WACO, TEXAS

    Ms. Krey. Thank you.
    Chairman Kline, Ranking Member Scott and members of the 
committee, I thank you for the opportunity to appear before you 
today to discuss the importance of child nutrition programs for 
students and families.
    My name is Kathy Krey and I am the director of research at 
the Texas Hunger Initiative at Baylor University. THI developed 
strategies to end hunger through research, education and 
community development. We convene federal, state and local 
government with non-profits, faith-based groups and business 
leaders to increase food security.
    Child nutrition programs are an important resource for 
lessening the effects of food insecurity. These programs are 
instrumental in ensuring that students from low income 
families, especially, have access to healthy meals throughout 
the year.
    In Texas, it is estimated that 27 percent of children live 
in food insecure households, which is higher than the national 
average, meaning, they have difficulty meeting basic food needs 
at least some time during the year. THI and its partners across 
our state have fostered public-private partnerships to maximize 
the reach and efficiency of child nutrition programs.
    Public challenges like food insecurity pertain to more than 
one jurisdiction by nature. Therefore, they require a response 
that exceeds the capabilities and resources of any one 
department or organization. And collaboration provides a way to 
stretch resources to accomplish more with less.
    The administration and coordination of child nutrition 
programs present unique opportunities for public-private 
partnerships to take shape. Through actors such as the Texas 
Department of Agriculture, schools, non-profits, congregations 
and foundations, community-based resources like funding, 
volunteers and space are pooled and maximized.
    The need for meals is especially high during summer months 
for Texas children when school is not in session. The summer 
meals program is one way to ensure that children receive health 
meals. Schools, non-profits and local municipality service 
sponsors and have meal sites within their regions.
    In Texas, about 300,000 kids a day participate in the 
summer meals program, and regular access to healthy meals in 
the summer is important, not just for students' health, but for 
students' academic well-being. We know that inadequate 
nutrition can intensify summer learning loss, especially for 
low income students who can lose up to twice the ground of 
other students during summer months.
    Additionally, after-school snacks and meals can help 
relieve financial burdens for working parents and provide 
support for schools and non-profits that run afterschool 
enrichment programs so they can provide healthy meals. In 
Texas, in 2014, we served an average of 51,000 meals a day in 
afterschool programs.
    In addition, school meal programs like school breakfasts 
are important to a successful school day, especially for low 
income children who might not have access to breakfast at home. 
In Texas, more than 1.7 million students start their day with 
school breakfast, including 1.5 million low income students. 
Eating breakfast is associated with positive student outcomes, 
including improved attention and memory, and decreased 
disciplinary action.
    School meals offer all students better opportunities to 
succeed in school, especially children at risk of missing meals 
at home.
    Following are examples of public-private partnerships in 
Texas that supplement and maximize federal funding and state 
administration of child nutrition programs. In the Rio Grande 
Valley, Catholic Charities utilizes the Summer Food Service 
Program to sponsor over 75 summer meal sites. And they 
collaborate with churches and non-profits in their area to 
support these sites, including a local non-profit that provides 
activities for kids and classes for adults in the summer, and a 
national non-profit that provide books and educational 
programming at summer meal sites.
    These churches and non-profits coordinate their efforts by 
sharing volunteers, serving meals and providing activities. In 
East Texas, THI partners with the local community food 
coalition and local farmers to redistribute excess food from a 
local farmer's market to summer meal sites. The program 
includes educating families on healthy eating habits and 
cooking lessons. These partnerships link families with existing 
services in the community to improve quality of life.
    Child nutrition programs are necessary to curb the effects 
of food insecurity. Public-private partnerships bridge local, 
state and federal resources to maximize the efficiency and 
reach of these programs so that children can stay fueled for 
learning all year round.
    Thank you for the opportunity to speak.
    [The statement of Dr. Krey follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Chairman Kline. Thank you, Dr. Krey.
    Thank you to all the witnesses for your testimony.
    We will move now into a discussion, into questions. I will 
start, and I will be put on the clock.
    [Laughter.]
    In my ever futile efforts to get my colleagues to contain 
themselves.
    Ms. Bauscher, this is kind of a strange question with what 
I think is an obvious answer, but with all the rhetoric that is 
out there, we ought to get this straight.
    You represent an awful lot of professionals. Are there any 
school food directors actually looking to serve unhealthy 
meals?
    Ms. Bauscher. Absolutely not.
    Chairman Kline. Exactly. And, yet, we do have a lot of 
discussion and we are trying to figure out what federal policy 
we need in place that allows these directors to serve healthy 
meals. I mentioned earlier, Mrs. McAuliffe and I had a brief 
discussion before we started the hearing.
    I visited a school in my district, you have suggested that 
all of my colleagues do that, and I would concur. And I went to 
their cafeteria and I was there at lunchtime and I watched how 
it worked. It was a very well-organized program. But this 
school is actually contemplating dropping out of the federal 
program and just operating it on their own. This idea came from 
kids, and so I sat down with four students, exceptionally 
bright kids, they are all kids to me, young men and women in 
the high school and they spoke highly of healthy meals. They 
even talked about how they liked the fruits and vegetables. 
There was some discussion about broccoli but, in general, they 
really liked that. They just want the meals to be bigger and 
better. And they really did a lot of research, these four kids, 
and they pointed out some, what I think are just crazy 
examples.
    There was one young man sitting there, a senior, getting 
ready to go off next year on a football scholarship and play 
football. And his portion was exactly the same size as the kid 
who weighed probably 100 pounds less and was not going off to 
play football. So they had some consternation there and the 
kids thought, this is a fairly well-to-do school, the kids have 
money, and so what they are doing is just buying other food.
    So they are getting the healthy meal but then they are 
going and buying more food because they are not getting enough 
to eat before they go off to football practice or to gym 
practice or something like that.
    So the school is actually considering dropping out of the 
program. Have you heard of other schools who have either left 
the program or are considering leaving the program because of 
the constraints?
    Ms. Bauscher. Yes, sir. I recently, this past weekend, 
attended the school nutrition association of New Hampshire's 
conference, and I have actually talked to two managers in a 
district that recently went to a contract management company, 
or off of the school lunch program, because they could not meet 
the current requirements and satisfy students' needs.
    Across the country, there have been a number of districts 
or schools that have come off of the program, primarily in 
areas where there is a low number of at-risk students. They 
have got the money to buy other things, and, under the current 
guidelines, it is difficult with the reimbursement that we 
receive to meet the students' needs given the requirements, for 
example, that we make them take a fruit or vegetable. If that 
goes in the trash, then we are throwing resources away that 
could be used to improve the program in other areas, 
potentially meet some their needs, or to provide nutrition 
education which teaches them the importance of eating healthier 
choices.
    Chairman Kline. I have used the word and hear the word used 
many times, flexibility, that you and your professionals need 
more flexibility. What does that mean to you?
    Ms. Bauscher. Well, for example, again, a requirement the 
students must take a half cup of a fruit or vegetables, we are 
asking for flexibility to allow the school food authority to 
determine whether or not students have to take that component.
    The good news is, students across the country are becoming 
more accepting and comfortable with a wide variety of fruits 
and vegetables and SNA supports the larger serving sizes and 
the wider variety that we offer. But, again, if that fruit or 
vegetable goes in the trash, we are throwing valuable resources 
away that could be used to improve the program in other areas.
    Regarding the whole grain requirement, beginning July 1 of 
this year, 100 percent of the breads and grains that we serve 
have to be whole-grain rich. Most districts are exceeding or 
were exceeding the requirement that at least 50 percent of the 
whole grains be whole-grain rich.
    But across the country in regions there are particular 
items; where I live in the south, its biscuits. In the deeper 
south it is biscuits and grits. In the northeast, it is that 
New York-style bagel and in the southwest it is tortillas; 
where many school food authorities struggle to find a product 
available in their area that is acceptable to their students.
    That is the flexibility that we need in order to plan and 
serve meals that are appealing to our students, keep them in 
the cafeteria. We, of course, realize how important it is for 
them to consume our food and be ready for the teachers to teach 
them.
    Chairman Kline. Thank you.
    My time has expired. I failed in my first test here.
    Mr. Scott, you are recognized.
    Mr. Scott. Thank you, Mr. Chairman.
    Mrs. McAuliffe, thank you for being with us today. Can you 
say a word about the need for a federal role in child 
nutrition?
    Mrs. McAuliffe. Well, I think it is clear, Congressman 
Scott, you have been a witness to this for so many years, the 
importance of it. Our military leaders, our generals and 
admirals are a part of this conversation. They are a part of 
ensuring that the nutritional standards stay in place, that we 
work towards this goal of making sure that the food access is 
there but also the food quality because we know that, yes, over 
decades, we have relied and become a culture of convenience.
    And so we are up against decades of maybe not going in the 
right direction where we should in terms of nutritional 
standards. But it will take time and it will take consistent 
effort to ensure that our children are building lifelong habits 
around choosing and having access to healthy food.
    I think that any parent would recognize the story about, 
you know, trying to introduce vegetables to your young toddlers 
and that it takes more than one time, 2, 3, 4 years of 
continual introduction of the right, proper and different 
foods. We have a middle school son so I can speak to that. It 
still goes on, he is 12 years old, but we still have these 
conversations at dinner every night.
    I would just want to say that those school nutrition 
directors that we know, that we have met in Virginia, we are 
seeing 94 percent of our schools that are saying that they are 
meeting the guidelines, they have thought about implementation 
over time, not all at once.
    It is gradual, that is the way we know we introduce the 
right habits and tastes and all of those kinds of things, and 
we feel like, with the proper technical assistance, training 
and guidance, that, with support and perhaps more resources, I 
would argue, because we do understand. School nutrition 
directors are operating on pennies a day to feed our children. 
And that is tough and we know that.
    So I would just say there is a long commitment in this 
country, in this committee to making sure that our next 
generation is strong and healthy. We know. It is what our 
grandparents and our parents always told us, food is the best 
medicine. So I would say that I appreciate the opportunity to 
be here and to just ask that we seriously not think about 
turning back but continuing to push forward.
    Mr. Scott. Thank you.
    Now, Dr. Krey, you have research on the effect of good 
nutrition on academic success?
    Ms. Krey. Yes. There is a body of literature that shows the 
connection--
    Mr. Scott. And also behavior?
    Ms. Krey. Yes.
    Mr. Scott. And long-term health?
    Ms. Krey. Yes.
    Mr. Scott. Could we get the benefit of that, could you 
provide us with that research that you have?
    Ms. Krey. Yes, I can follow up with you and--
    Mr. Scott. Good.
    Ms. Krey.--provide you those specific studies.
    Mr. Scott. Thank you.
    And, Mr. Storen, does your organization have research on 
good nutrition effects on academic performance, behavior and 
long-term health?
    Mr. Storen. Yes, we do.
    Mr. Scott. Okay, and if you could provide that, I would 
appreciate it.
    Mr. Storen. I would be happy to.
    Mr. Scott. Okay.
    Ms. Bauscher, does good nutritional food cost more?
    Ms. Bauscher. It can cost more, especially the costs around 
fruits and vegetables right now. Half cup serving of kiwi, 
which is one of my students' favorite fruits, is currently 80 
cents. Therefore, I have to limit how much I offer. I have 
instructed my managers to continue to purchase kiwi; kids love 
it, they will pick it up. But only to include a slice of it in 
a fruit cup that contains other, less expensive fruit.
    Mr. Scott. Now, when we increased the nutritional 
standards, did the federal government reimbursement go up--
    Ms. Bauscher. We received an additional--
    Mr. Scott.--enough?
    Ms. Bauscher.--six cents for each lunch.
    Mr. Scott. Was that enough to pay for the additional 
nutritional value?
    Ms. Bauscher. That is not enough.
    Mr. Scott. How much more should it have it been?
    Ms. Bauscher. SNA is requesting 35 cents more for each 
lunch and for each breakfast. That will help school food 
authorities afford the foods that we must serve. But, 
unfortunately, that won't make students consume it. And that is 
what we are also focused on is finding ways to ensure students 
will eat the healthy foods that we are making available to them 
and not throw it in the trash, which is throwing away very 
valuable resources.
    Mr. Scott. There are different studies on how much food has 
been thrown away.
    Ms. Bauscher. Yes, there are. There are--
    Mr. Scott. Some show that the food waste has not gone up 
with the additional--
    Ms. Bauscher. But there--
    Mr. Scott.--nutritional--
    Ms. Bauscher. There are also studies; Cornell University 
study that showed there was an additional $684 million, or $1.3 
million a day, of fresh fruits and vegetables going in the 
trash. In our own member surveys, members have reported to us 
especially fruits and vegetables are the most often components 
that students are pitching as they go through the serving line. 
And I think that we need to be concerned--
    Mr. Scott. But there are studies on both sides of that 
issue?
    Ms. Bauscher. Yes, there are.
    Chairman Kline. The gentleman's time has expired. We both 
failed miserably, so, now I am cracking down on the rest of 
you.
    Mr. Thompson, you are recognized.
    Mr. Thompson. Thank you, Chairman. Thanks for the precedent 
that you have given, and your leadership. Thank you for this 
hearing, actually. Incredibly important topic that we talk 
about fueling our next generation and all future generations.
    And thanks to all the panelists for being here for your 
testimony, your passion, your expertise on an important issue.
    Ms. Bauscher, you know, thank you to you and all those that 
you represent in your association. I spend a lot of time at 
schools, but I also spend times--the passion, the commitment of 
the professionals who work in school nutrition, we meet in the 
community, they come to the office, not just in the school, and 
I appreciate their leadership and what they do in our schools.
    I believe as a result of the most recent federal school 
nutrition standards, we have seen a sharp decline in the 
participation of school meal programs. I mean, that is what I 
am seeing as I get around a lot of my congressional district, 
which is just about a quarter of the state of Pennsylvania, 
geographically.
    Since fewer students are eating lunch in the cafeteria, 
they are more at risk of under-consuming the recommended 
amounts of fruits, vegetables, whole grains and milk. And, 
notably, 1.1 million fewer students drank milk with lunch 
during the 2014 school year than compared to 2012.
    I would like to reference a new report from the National 
Dairy Council that highlights the nutritional importance of 
milk and stresses concern for recent consumption declines. 
Report underlines that milk is the number one source of nine 
essential nutrients in young Americans' diets and provides 
multiple health benefits, including better bone health, lower 
blood pressure, and reduced risk of cardiovascular disease and 
Type 2 Diabetes. If today's school students are falling even 
further behind in milk consumption, it should be easy to agree 
that action is needed.
    You know, my question for you is, given your hands-on 
experience and the hands-on experience of those that you 
represent today, and the extensive background with school 
nutrition, do you agree that this is a concern? And, 
additionally, what can be done on a federal level to help you 
increase the average daily participation in the school milk 
programs?
    Ms. Bauscher. First of all, the new meal requirements do 
require us to offer fat free, flavored and unflavored, milk and 
1 percent unflavored milk. These milk varieties have been 
widely accepted by students in many, many programs. Many school 
food authorities transitioned to those varieties in 
anticipation of the new rules.
    To the question of increasing participation in the 
programs, again, I think that school food service directors and 
school managers who are the most passionate people I know in 
any profession, need a little bit of--we keep coming back to 
flexibility in terms of being able to prepare and serve menu 
items that appeal to students. That may mean the ability to 
serve a refined grain tortilla instead of a whole grain 
tortilla, or to offer grits at breakfast in the south. We 
believe that we can increase participation in the program that 
way.
    And, most importantly, we want this program to be 
acceptable and available to all students. I mentioned in my 
testimony that participation in the free category has increased 
and we are very grateful for that.
    Pay participation is down, however, and one of the 
unintended negative consequences of decreases in paid meal 
participation is that free students who live in food insecure 
environments and need healthy school meals may not participate 
because they are afraid of the stigma associated with school 
lunch and they do not want to be identified as needy or poor.
    So, again, we want the flexibility to prepare and serve 
meals to students that they will consume happily.
    Mr. Thompson. Thank you. And asking for more flexibility is 
what I hear anecdotally as--just consistently with every 
meeting that I have.
    Very quickly, I don't have a lot of time.
    Mr. Storen, in your testimony, you say hunger might not be 
as visible in America as it is in other countries. Can you tell 
us what you mean by that and what it implies for hunger in 
America?
    Mr. Storen. Sure, I mean, I think some people have an 
association that hunger is the equivalent to the images we see 
of malnourished children in famine settings in other countries. 
And, in America, you know, that is not the image of hunger. 
Hunger is in the suburbs, hunger is in rural communities, 
hunger is in schools, hunger is, you know, with kids zero to 5 
before they come to schools.
    And, so, when we talk about the solutions that we need to 
put in place to address hunger in America, and what those 
impacts are, we have got to find a way to make those programs 
meet the specific needs of kids where they are based on their 
developmental needs so that we can have the positive impacts 
that we want. Because we have talked already about the positive 
impacts of healthy nutrition on healthcare, on educational 
attainment and workforce development.
    THOMPSON. Thank you.
    Thank you, Chairman.
    Chairman Kline. Okay, thank you, gentlemen.
    Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Chairman Kline and Ranking Member 
Scott.
    I want to thank you all for bringing this panel to talk to 
us about something very, very important and concerns that we 
have in Congress.
    The Centers for Disease Control tell us that over the past 
three decades, childhood obesity rates have tripled. Nearly one 
out of every five American children between the ages of 6 and 
19 are obese. That is a national crisis that these programs are 
designed to address.
    Nutrition is directly connected to how well those children 
do in the classroom, as stated before. Ask any teacher and they 
will tell you that if children don't have nutrition in the 
morning, if there is not food in their homes and they come to 
school hungry, they start to act out in class because they 
start to drift.
    In addition to hunger, we are also fighting a national 
concern, the scourge of childhood obesity. This concern is 
found in all 50 states, in both young children and adolescents. 
It affects our social and economic levels.
    The school breakfast lunchroom programs make a difference 
because they provide more than 50 percent of a student's food 
and nutrient intake on school days. Child nutrition is at the 
heart of our social safety net and the safety of all of our 
children, and these programs have been overwhelmingly 
successful and they have been cost effective.
    Childhood obesity and diabetes are reaching epidemic 
proportions in both the Hispanic community and the black 
community across the nation. We must do more to help all young 
people develop healthy lifestyles.
    I could speak about the Rio Grande Valley of South Texas 
where approximately 85 percent of the students in our region 
participate in free and reduced meals in our school meal 
program. According to USDA, one in every three Hispanic and 
black households with children is food insecure and may not 
know when the next meal will be available.
    Twenty-seven percent of Texas children, as stated before, 
one in four, live in food insecure households, the second 
highest rate in the whole country. The source of this data is 
found in USDA/Feeding America.
    I was born and raised in Hidalgo County where more than 
half of the residents are on food stamps, and they have all 
these children who are participating. That is why I fully 
support these new child nutrition programs and believe we 
should continue to strengthen them, not to weaken them.
    My first question is to First Lady McAuliffe. What are the 
effects on children that Virginia has seen because of your 
efforts on summer food and school breakfast?
    Mrs. McAuliffe. Well, thank you for the question, sir. We 
have seen success but we know we need to continue to build on 
success. I would say that I agree, school nutrition directors, 
our cafeteria staffs are probably the hardest working--I 
shouldn't single out any group because everyone in our public 
schools are working very hard to ensure that our children do 
well.
    But I think that where we have seen success and we have 
seen it broadly, we have all visited a lot of school breakfast 
and school lunch lines, and the places where, as I mentioned 
before, we are seeing gradual implementation and bringing along 
the ideas and the curriculum with nutrition is really 
absolutely critical to success.
    We have seen teachers, we have talked with teachers where 
children don't know where a carrot comes from. They don't know 
what a real peach looks like. And I think that is a faraway 
place from where we want to be as a nation. But when we--
    Mr. Hinojosa. Thank you for--
    Mrs. McAuliffe. So when we think about--
    Mr. Hinojosa. Thank you for your answer. My time is running 
out, and I want to make statement so it will be in the record.
    Mrs. McAuliffe. Yes.
    Mr. Hinojosa. It was back in a past administration between 
2004 and 2011 that we discovered that there had been some 
national food distributors to our national food program who 
were fixing prices, and, consequently, bringing the cost of 
much of the food to our school lunch programs. And Congress 
refused to remove those companies--national names that I won't 
name, but it is in the record that we wanted to remove them 
from approved national firms that could get the contracts for 
food distribution. And that, naturally, is something that we 
need to readdress again and see if we can bring down the food 
cost.
    But let us not say that $1 billion increase as was pointed 
out by Ms. Bauscher is too much because I was voting to approve 
for many, many years, 12, 13 years, spending $10 to $12 billion 
a month in our war in Iraq and Afghanistan. So $1 billion is 
not much.
    Chairman Kline. The gentleman's time has expired.
    Mr. Guthrie?
    Mr. Guthrie. Thank you, Mr. Chairman, and I appreciate 
being here and having Ms. Bauscher here from Kentucky and, 
First Lady, I will say I drive every now and then--about twice 
a year and it is always a pleasure to drive through Virginia. 
What a beautiful state.
    Mrs. McAuliffe. Please stop by some time.
    Mr. Guthrie. We do stop and see some of our heritage there. 
You have got a lot of heritage and we appreciate that. Of 
course, until 1792, we were Virginians in Kentucky, as well.
    [Laughter.]
    Mr. Guthrie. Ms. Bauscher, you know, this is important. I 
am glad that you are here because, you know, I hear from a lot 
of school nutritionists and pros and cons of what is going on 
and what is common is every single one of them is dedicated to 
kids eating better. And just trying to figure out how we make 
this work in the situation that we are in.
    And, so, following this, I hope we will invite you, but, 
following this, I am going to do four roundtables back home 
with school nutritionists, so I will be in I think 
Elizabethtown and also in Jessamine County--or Bullitt County, 
and then Bowling Green and Owensboro, so any of those, you will 
be welcome to make. Because we just want to hear from the 
practitioners who are really putting this--and, as I said, all 
of them to the one, that we want kids to eat better. But there 
are some issues that we need to address.
    And, so, I have a couple of questions for you. And since 
the rollout of the new meal standards, you know, I have heard 
from administrators in my district that say there is an 
increase in students bringing their lunch to school, as well as 
increase in food waste. And when your district partnered, I 
believe, with a local chef to try to increase the appeal of the 
nutritious food, how did your students respond? Or just talk 
about that program. Did you see a change in participation and 
how much more did it cost?
    Ms. Bauscher. We worked on a contract basis with a local 
chef, a wonderful chef, who not only helped us revise our 
recipes but also did healthy food demonstrations for students 
during the school day and for parents at evening events. I 
think it is important that we teach families how to prepare 
healthy meals at home.
    So we worked with him. We established also something called 
Student Nutrition Advisory Councils which many districts 
implement that strategy for ensuring input from students so 
that before we produce a recipe in a vast quantity, I have a 
central kitchen so I prepare 200 gallons of some products at a 
time, we know that it is going to appeal to students. So we 
test taste products with those students.
    We also work to provide samples of new menu items in the 
cafeteria, and one of my priorities for next school year is to 
continue develop partnerships with school site-based PTAs and 
other parent groups that can help us do that sampling in the 
cafeteria because we don't have enough hands to do that.
    It does increase participation and pickup of those items in 
some instances. But, overall, I have had an increase in 
participation because I participate in CEP. In my non-CEP 
schools, my participation is still off at breakfast and lunch 
by 3 percent.
    So we are trying new items, encouraging them to take new 
items. I agree with Mrs. McAuliffe, we must teach children why 
it is important to eat healthy. We know we are helping them 
establish lifelong eating habits and we take that very 
seriously and passionately.
    Mr. Guthrie. Yes, I know you do. And you also, during the 
out-of-school--I know, Jefferson County had probably--well, 
there are six members of Congress, one has Jefferson County, so 
you probably have six of the Commonwealth students. So, I mean, 
you have the volume and they geographically connect. I mean, 
they are close to each other so the volume.
    I know you partner with private entities for when school is 
not in session. Can you describe some of those programs? Summer 
and when school is not in session?
    Ms. Bauscher. Yes, we prepare our summer meals in our 
central kitchen. We provide those meals to Willow Metro 
government; they are also a summer sponsor through the 
Community Action Partnership Program. We provide meals to them.
    Two years ago, I started a bus stop cafe. Our 
transportation department donated a bus to us and we outfitted 
it to provide summer meals. We go throughout the community to 
at-risk neighborhoods, mobile home parks, public pools, the 
Greenwood boat dock on the Ohio River, and feed kids through 
that program. It has been tremendously received and very 
successful.
    We added a second bus last summer. We have not added a bus 
for this summer but we are partnering with a group that is 
donating books to kids and wants them to have access to them in 
the summer, so there is going to be a book buggy following the 
bus. Local arts groups have contacted us and want to be able to 
provide some arts programming for students during the summer at 
the sites where we are providing meals.
    Mr. Guthrie.--I live in Bullitt County--
    Ms. Bauscher. Great partnerships.
    Mr. Guthrie.--so I am right next to you. It looks like I 
don't have enough time but I was in Europe at a NATO meeting, 
and one of the Europeans were saying, you know, the problems in 
America with your hunger is not what you just said, Mr. Storen 
described as obesity.
    Well, I just lost my time.
    So I was just kind of wondering if it was an access to food 
or proper food. I am out of time. He is going to gavel--
    Chairman Kline. The gentleman's time has expired.
    Ms. Fudge?
    Ms. Fudge. Thank you very much, Mr. Chairman. And I thank 
you all for your testimony today.
    Just want to make a couple of comments before I get to my 
question.
    One, certainly, we all understand that we can do better, 
that we can find better ways to feed hungry children. But I do 
also want to say that I can understand why wealthy school 
districts do have a problem because these programs were not 
designed to help wealthy kids. And so we have to look at it 
from that perspective. So I can understand if they want to opt 
out it might be difficult because it is not designed for them.
    Now, let me just get to my questions. And I am going to ask 
everybody the same question. There was a lot of discussion 
about summer feeding programs which I am especially concerned 
about because I do represent a district that has more than a 20 
percent poverty rate, and in my schools, it is significantly 
higher, of poor children. So if each one of you can just tell 
me what you think we can do to make our summer feeding program 
better. Just one thing you think will make a change, I would 
appreciate that, as succinctly as possible.
    Mr. Storen?
    Mr. Storen. Sure. Thank you. I think that states and 
communities need more options in terms of the way that summer 
benefits are delivered. Now, there is a single, sort of uniform 
congregate feeding model, and that works great for some but it 
doesn't work at all for most. And, so, Congress authorized in 
2010 a series of demonstration projects to look at alternative 
service models. There is great data coming out of the third-
party evaluations and I think in there is a roadmap to giving 
states more options so that, you know, a city can do it one way 
and a rural community can do it another way.
    Ms. Fudge. So we have the data, we just need to use it?
    Mr. Storen. Yes, ma'am.
    Ms. Fudge. Thank you.
    Ms. Bauscher. And I would agree with Mr. Storen's comments, 
more options for delivering that program would be very helpful. 
I know, particularly at my bus sites which are outside, one of 
the problems we face is the extreme heat in the summertime. It 
would be great if the students could take those meals with them 
on a regular basis. That would be very helpful.
    I think we could also look at the paperwork involved in 
implementing these programs. If that could be streamlined in 
some fashion. Improving the way in which we approve sites for 
participation in the program would also be helpful.
    Ms. Fudge. Thank you.
    Mrs. McAuliffe. I agree. I agree congregate feeding sites 
really need to be looked at, especially critical in our rural 
communities. It makes it so difficult.
    Easing the paperwork and how we qualify our kids. The 
paperwork is done. It is done in our schools, our community 
centers, our Boys & Girls Clubs, our local partners need to 
have, why do we have to go through extra layers of identifying 
those kids in need. And I think transportation I will, again, 
say, with those congregate feeding sites, and looking at that 
is really critical.
    Ms. Fudge. So do you think that the lack of transportation 
is one of the problems that keeps the participation low? I am 
really trying to figure out how do we increase participation? 
In my state, only 10 percent of eligible kids participate in 
the summer program. Nationally, I think that average is about 
16 percent. How do we get that participation up?
    Dr. Krey?
    Ms. Krey. Yes, as Dr. Storen mentioned, in Texas we were 
one of the states that had one of those demonstration pilots 
that USDA tested, and we saw that was effective in reducing 
food insecurity by about an extra 20 percent and that it helped 
reduce barriers like transportation, which is significant, 
especially in rural parts of Texas and where we do have extreme 
heat, additionally, that can be a barrier.
    Ms. Fudge. Well, I am glad to see that something that we 
did worked. I saw the federal government actually did a good 
thing by trying to determine how we make these programs better, 
so I thank you for that.
    Mrs. McAuliffe, you talked about a program that you helped 
start, Eat Smart, Move More, which is very similar to our Farm-
to-School program. Why do you think that these programs are 
effective at getting young people to eat better?
    Mrs. McAuliffe. I think that the curriculum piece is 
absolutely critical, and so when you bring--the Farm-to-School 
piece is also a wonderful way to blend the nutrition with 
agriculture, education, bioscience, technical jobs in the ag 
area, you know. Agriculture is our number one private industry 
in Virginia. We are very lucky that way.
    So to be able to talk about why food is important, not only 
for your own personal health and well-being but as part of our 
larger economy in looking at the jobs of the future and where 
your career track might be, and knowing where a carrot and a 
peach really come from, I think, is absolutely critical for our 
children and the more we talk about it as part of the 
curriculum, the more those conversations carry over into the 
cafeteria.
    Ms. Fudge. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman Kline. Thank you, gentlelady.
    Mr. Rokita, you are recognized.
    Ms. Rokita. I thank the Chairman. I thank the witnesses for 
their testimony and their leadership on this issue. It is 
really appreciated.
    I want to focus some of my questions around the 
bureaucracy, maybe in these programs generally and what you do 
and maybe even if you see some waste, fraud and abuse.
    But, Mr. Storen, starting with you, you mentioned 
bureaucratic inefficiency in your testimony. Can you give me 
some specific examples?
    Mr. Storen. So I would say that one place where I think 
there is inefficiency and duplication is in the administration 
of the programs that are delivered--
    Ms. Rokita. Is your mike on? Are these mikes on?
    Mr. Storen. Thank you. I am sorry about that.
    I think one place where we can increase efficiency and 
address some administrative duplication is in the delivery of 
the programs that are implemented through those public-private 
partnerships with churches and Boys & Girls Club, YMCAs and 
food banks.
    During the school year, as Dr. Krey referenced, many of 
these programs have afterschool meals programming where they 
provide a healthy snack to kids. If they want to provide that 
same child with a snack at the same place at the same time with 
the same programming afterschool is out, then they have to flip 
to an entirely new USDA program. It might have a new state 
agency. They have to fill out a new application, have a new 
site inspection, have different reporting requirements.
    Ms. Rokita. But, Mr. Chairman, they are run by the same--it 
is the USDA in both cases in your example, right?
    Mr. Storen. That is correct. But the way that the law is 
structured has different authorizing language for the summer 
feeding program and for the CEP at-risk program. So if we want 
these great community organizations to continue to provide 
services and focus on kids instead of focusing on paperwork, I 
think there is a real opportunity there to create some 
efficiencies so we have one program for community organizations 
out of school time.
    Ms. Rokita. Thank you, Mr. Storen.
    My time is limited so let me go on to Ms. Bauscher. Thank 
you, again, for your leadership.
    Obvious constitutional issues aside for a second, one of 
our duties is to ensure the programs we are authorizing are 
actually running effectively and in accordance with the law. 
You mentioned cost, I believe, in your testimony, especially 
with the new regulations. But do you see or do your members see 
any pattern, waste or fraud going on or abuse of any kind in 
these programs?
    Ms. Bauscher. I do not. And I do not know of anyone who 
does.
    Ms. Rokita. Are you looking for it?
    Ms. Bauscher. Oh, absolutely, yes.
    Ms. Rokita. How?
    Ms. Bauscher. Well, we do that by regularly monitoring what 
occurs in the cafeteria at the point of sale to assure that we 
are offering reimbursable meals. We do training all of the time 
to make sure that our cashiers understand what the requirements 
are.
    Ms. Rokita. Are all the sign ups legitimate? Is the 
eligibility`--
    Ms. Bauscher. The eligibility--we do verification and--
    Ms. Rokita. How?
    Ms. Bauscher. Well, we pull a sample of the applications 
that we approve and we send letters to households asking them 
to provide proof of income. And we do that if anyone in the 
community were to report a potential case of fraud. We can 
verify for cause. So we do that regularly.
    To Mr. Storen's message about streamlining this and making 
it more effective, I think one of the things that many states 
are doing and I am very fortunate to be in Kentucky because we 
do an excellent job of directly certifying students for free 
meal benefits--
    Ms. Rokita. What does that mean?
    Ms. Bauscher.--which means that they are receiving certain 
other types of federal assistance, including Medicaid, some 
forms of Medicaid we can automatically, categorically qualify 
the students in the household for free meals, and that 
decreases the errors.
    Ms. Rokita. In that situation, the school would be out of 
the business of pushing the application out to the parents or 
whatever. You drill into a database of some sort--
    Ms. Bauscher. Yes. Now, we still have to collect 
applications for those students who may not be directly 
certified who aren't receiving other federal benefits--
    Ms. Rokita. Oh, so the school is still pushing 
applications?
    Ms. Bauscher. Yes.
    Ms. Rokita. Thank you--
    Ms. Bauscher. But, in my district, 55 percent of my 
students are directly certified for direct free meal benefits. 
That means 55 percent of my households don't have to complete a 
free and reduced meal application in order for their students 
to receive benefits.
    Ms. Rokita. Do you think that is a good policy?
    Ms. Bauscher. Yes, I do.
    Ms. Rokita. Why?
    Ms. Bauscher. Again, in my district and in many districts 
around the country, we have got very diverse communities where 
sometimes there are communication barriers. We often work with 
students on helping, you know, having the student translate to 
their parents for us to help them complete an application. They 
are afraid of the process and intimidated by the process so--
    Ms. Rokita. I am out of time. Thank you.
    Ms. Bauscher. Okay.
    Chairman Kline. Thank the gentleman.
    Mrs. Davis, you are recognized.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you to all of 
you for being here.
    I wanted to follow up on the discussion on summer meals 
earlier and, to you, Mr. Storen, I know you have had some 
experience with this. What role can the electronic benefit 
transfer play? We know that the pilot program has been seen as 
effective and the issue really here, in addition to some 
others, I think, how do you bring that to scale? And what 
issues do you think need to be addressed?
    Mr. Storen. Sure, thank you for your question.
    I do think the evaluations from the summer EBT projects 
showed the most promise as a new option for service delivery 
for state agencies, you know, reached upwards around 90 percent 
of the target audience. It decreased food insecurity by over 20 
percent and over 33 percent for very low food security. It led 
to healthier food consumption; children consumed 12 percent 
more fruit and vegetables, 30 percent more whole grains, 10 
percent more dairy.
    And I think the reason that this program can be brought to 
scale is twofold. One is it implemented through an existing 
infrastructure. So the benefit is added to either a SNAP or a 
WIC EBT card. Those infrastructures have been built and proven 
to be successful and have great integrity. And, so, you can 
bring those to scale because they are already present.
    The second is, you know, a third of all the low income 
children in the United States live in communities where the 
summer meals isn't even operate--
    Mrs. Davis. Right.
    Mr. Storen. By law, it has got to be in a concentration of 
poverty of at least 50 percent for your reduced-price kids. And 
with the suburbanization of poverty that we have now in the 
United States, we see more poor children in suburbs than we do 
in urban areas or anywhere else.
    And then the challenge that the First Lady McAuliffe talked 
about in rural communities. So by overcoming transportation 
barriers and providing a benefit to children where they are, 
and we know from our own research of low income families, that 
80 percent of children are at home in the summer.
    Mrs. Davis. Yes.
    Mr. Storen. So meeting kids where they are instead of 
trying to bring kids to a place where they can't get.
    Mrs. Davis. Yes, oh, I appreciate that. I mean, we often 
talk about the educational loss in the summer and I have always 
wondered to what extent that is that kids are just basically 
hungry throughout the summer. And so even the kinds of games 
and toys and options they might have, which are maybe, you 
know, limited compared to a lot of other children who have 
pretty enriched summer experiences, they really aren't able to 
participate as well. Thank you. We need to really work on that.
    One of the things we know about the participation of 
schools, I mean, generally speaking, 93 percent of school 
districts, I think, are exceeding the new nutrition standards. 
But for that smaller percentage that are not, what kind of 
trends do you see, and, I guess, to Ms. Bauscher, what stands 
out the most? We have talked about the need for flexibility, we 
have talked about the need for food that kids identify with, 
and that they feel more comfortable eating.
    Are there some other issues that you see that really need 
to be addressed so that, for many of those districts, we are 
not just doing an overall waiver for them. I know for even San 
Diego Unified School District, there are some issues, and I am 
curious about where you see some of the trends. I mean, what is 
it that is holding people back?
    Ms. Bauscher. Again, it is their inability to provide foods 
that their students are familiar with and will consume. Those 
are the primary concerns. We also see some concerns around 
providing program simplification which--
    Mrs. Davis. I am sorry, programs of?
    Ms. Bauscher. Simplification--
    Mrs. Davis. Oh, okay.
    Ms. Bauscher.--to Mr. Storen's point so that the programs 
are easy to access. One of our policy requests or asks is for 
more money so that we can afford--
    Mrs. Davis. Is technical assistance a major problem? Do 
schools need more help or support in trying to figure this out?
    Ms. Bauscher. There are districts that need more support--
or technical assistance, and SNA has been one of the leaders in 
offering our members that support, again, through best 
practices webinars, education sessions offered at our 
conferences. We have over 100 education sessions scheduled for 
our summer conference this year. Our state affiliates are also 
providing training. So that equips food service directors and 
food service managers with strategies they can use to encourage 
kids to make healthier choices, but it doesn't control the cost 
of those items often, and it doesn't make kids consume them. 
So, yes, training and technical assistance is important but it 
won't solve all of our problems.
    Mrs. Davis. Thank you.
    Chairman Kline. Gentlelady's time is expired.
    Dr. Heck?
    Mr. Heck. Thank you, Mr. Chair. Thank you all for being 
here.
    I represent the Clark County School District in Southern 
Nevada where about 58 percent of its almost 320,000 students 
are on free and reduced lunch.
    We are fortunate in my community to have the Three Square 
food bank organization that provides a lot of services to our 
students, including backpack for kids, so they go home on 
Friday with a backpack of food to carry them through the 
weekend. They participate in feeding for America's Kids Cafe 
and they also provide summer feeding services.
    Mr. Storen, you have mentioned that too many eligible 
children can't participate in some cases during the summer 
months because the program has not been updated in 40 years. 
What types of updates are necessary so that more children can 
participate?
    Mr. Storen. Thank you. I think the updates that we are 
looking for are more tools in the toolbox, more options for 
state agencies and communities than only having a congregate 
feeding model. Again, that works great where it works but it 
doesn't work for most kids. And so having summer EBT as one of 
those options to reach children in communities where it is not 
practical to have a congregate feeding site.
    Being able to send children home with a meal on the 
weekends, like the food bank does in your district, being able 
to deliver meals to children at home, having waivers from 
congregate feeding when there is extreme heat.
    So, you know, every community is different. There are 
different weather conditions, there are different resources, 
there is a different geography. We don't need a single 
approach; we need tools so that approach can be customized by 
the state and that local community to meet their needs, and 
just having more options.
    Mr. Heck. You also talked about, you know, the importance 
of public-private partnerships, several of you did. In your 
experience, is there a specific model that seems to work better 
than another or a specific model that is fraught with peril and 
doesn't work out as well?
    Mr. Storen. No, I think that, you know, the child nutrition 
programs have a long history of successful implementation with 
public-private partnerships but those public-private 
partnerships look different in different communities. I don't 
think we can assign any one model and say, you know, all 
churches are great, or all churches aren't great, or every food 
bank, you know, should be the only ones providing afterschool 
meals.
    I think, you know, the resources and the community 
organizations are different. I think it is important to pay 
attention to program integrity, understand the needs in the 
community, and to come together and what we stress is a 
collaboration. We bring stakeholders from the public and the 
private sector together to share their strength, to figure out 
what they can contribute to solving the problem. And I think it 
is that level of planning and collaboration that is most 
effective.
    Mr. Heck. And I think what I have taken from most of the 
answers to several of the other questions is that the 
underlying request is really to have increased flexibility that 
will allow you to accomplish many of these goals and in an 
environment that is not as restrictive as current law.
    Mr. Storen. I would say that is the case for the summer 
feeding program and then I think there are some administrative 
efficiencies in the other programs.
    Mr. Heck. Right, well, Mr. Chair, unlike yourself, I will 
yield back the balance of my time.
    Chairman Kline. You are my hero. Thank you.
    [Laughter.]
    Chairman Kline. Ms. Bonamici?
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    And thank you, Chairman Kline and Ranking Member Scott, for 
holding today's hearing.
    And thank you to all the witnesses for being here to talk 
about this important issue that has historically been 
bipartisan. I am really looking forward to working with all my 
colleagues to take ambitious steps to ensure that fewer 
children have to worry about where they are going to get their 
next meal.
    And I really appreciate Mr. Rokita bringing up the 
efficiencies and thank you for your ideas on that. Let us make 
this work better for more children.
    My home state is already doing some great work but still 
facing some challenges. Just recently our governor signed a 
bill to eliminate copays for school lunch. I know that other 
states, Minnesota, Colorado, Vermont, have some variations of 
this. It is going to affect roughly 30,000 Oregon children who 
had qualified for reduced-price lunch; it will now be free 
lunch. We are removing a barrier for many of them.
    We also have been doing an Oregon summer EBT for children 
program. The pilot programs doing EBT transfers for children 
have seen a significant, up to a third, reduction in child 
hunger through this program. It has worked well in our pilot in 
Oregon. We should talk about expanding that because with that 
significant reduction in hunger, there is a lot of potential 
there especially with the summer programs.
    So it is clear that we need to take action and I know that 
many of you discussed, of course, how it is difficult for 
children to learn if they are hungry. It is really in our best 
interest. In a country like ours where we have so much, it is 
just wrong for students to be hungry, for children to be 
hungry.
    I thank Representative Fudge who apparently has left for 
her work on Farm-to-School programs, really important in our 
state of Oregon, I actually joined one of my colleagues and had 
lunch at an elementary school that does a Farm-to-School 
program. We had great fun. It was really good food, too.
    So there is, again, a win-win to work on those. Actually, 
it is a win-win-win because the children get more nutritious 
food, it supports local agriculture, but it also educates 
students about the source of their food.
    So I wanted to focus on childcare settings and talk about 
the importance of making sure that children in child care 
settings can get a late afternoon snack or supper when their 
parents have to work late, for example.
    So I want to ask you, Mr. Storen--first of all, thank you 
for acknowledging that this is a shared responsibility. It is 
an important role for Congress but there are also a lot of 
partnerships with our faith community, our non-profits, our 
parents.
    Can you talk, Mr. Storen, about some of the steps that we 
could take to promote a provider's participation in the Child 
and Adult Care Food Program? Child nutrition programs provide a 
great opportunity to educate families and promote healthy 
eating and I am wondering a little bit about these CAFPCC 
programs could help educate programs, serve as models.
    I imagine that there is a capacity there to provide 
nutrition education, might vary a little bit between a large 
center and a smaller daycare home, but is there a role for us 
to support nutrition and nutrition education in CAFPCC? And 
others could weigh in, as well. Would like your thoughts on 
that program, please.
    Mr. Storen. Sure, absolutely. I think the Child and Adult 
Care Food Program, you know, funds reimbursement for meals in a 
variety of settings, childcare settings, at-risk afterschool 
meals, adult daycare, homeless shelters, and, you know, that 
meal reimbursement, you know, it doesn't happen in a vacuum. It 
happens as part of a strong program, and those programs can 
look very different depending upon the age of the child and the 
setting.
    Rep. Bonamici. Right
    And so I do think that there is great opportunity for 
nutrition education to be part of the programming, either 
directly for the participants, perhaps if they are, you know, 
school age or older, or for the caregivers. I know we run a 
nutrition education program called Cooking Matters, and it is a 
wonderful 6-week cooking course, you know, that teaches 
families the food skills they need to shop for and prepare 
healthy food on a budget.
    And we also do these grocery store tours where we take 
people to the grocery store and teach them per unit pricing. 
And we have partnered with child, and adult care providers of 
the childcare settings to teach those caregivers of children in 
that setting those skills. It has been really successful and I 
think the afterschool meals programs--
    Ms. Bonamici. Absolutely. Before my time expires, do you 
have any thoughts on--there is some discussion about changing 
the area eligibility test for Tier 1 reimbursement for Child 
and Adult Care Food Program? For example, what if it changed 
from its current 50 percent to 40 percent so if reimbursement 
were offered to providers in areas where 40 percent of the 
children qualified for reduced price as opposed to 50 percent, 
how would that change access? Do you have thoughts on that?
    Mr. Storen. Yes, I don't have the numbers in front of me. I 
would be happy to try to get back to you after the hearing. It 
would certainly increase access because there would be more 
opportunities--
    Chairman Kline. Gentlelady's time has--
    Ms. Bonamici. My time is expired.
    Chairman Kline.--expired.
    Ms. Bonamici. Thank you.
    Chairman Kline. Mr. Brat?
    Mr. Brat. Thank you, Mr. Chairman.
    I was going to tee up a couple softballs for my friends on 
the panels but the more I listen the more I am kind of a Johnny 
One Note. With an economics background, I think I am going to 
go there again.
    Flexibility seems to be the key, and so I am going to ask 
this to all four of you, and you are not going to like the 
question because there are no good answers coming, but I want 
to hear you address flexibility.
    Public-private is in the air and I am going to give you a 
little hint as to what is coming on the public-private 
relationship coming up with my comments. I met with the 
governor of Virginia yesterday; he is doing a great job, going 
to China and India. They are growing at 7 percent; we are 
growing at 2 percent.
    And in this country, defense sequestration is taking a huge 
toll on Virginia, and Virginia's economy, and so everybody 
wants to know what are we going to do about resources across 
the board on this. There is no money. Right? There is no money 
for anything. And I said, well, if you think that is bad, I got 
worse news for you. Four programs under the federal government 
will consume the entire federal budget by 2032. Right? So you 
go to the U.S. debt clock, make sure I am not fibbing, right? 
Factcheck does it for me weekly in my newspaper so you can go 
check it out. But the country is $18 trillion in debt. We have 
$127 trillion in unfunded liabilities at the federal level.
    Four programs under law, the entitlement programs, Social 
Security, Medicare, Medicaid, Bush prescription drug plan, are 
two-thirds of the budget currently. Those four programs will be 
100 percent of the budget by 2032. So that is the context we 
are all operating in. And so I have got a tough question for 
you.
    It seems to me the solution isn't food. The solution seems 
to me, as an economist, is getting the parents engaged in the 
private sector with meaningful jobs so that they can provide 
food and are educated to solve the problem. So I think if we 
are aiming for the wrong policy target, we are going to hit it. 
And it is the wrong answer.
    So the problem isn't food, the problem is how do you have 
gainfully employed parents who are educated to the point that 
they can provide food for their kids? Because we all care about 
the kids. And that is the goal.
    And so I am just kind of laying that out to--you have got 
16 years to solve that problem, right? It is not going to be a 
matter of finding resources and funding for food at the federal 
level, given the numbers I just gave you. So put on your 
creative thinking cap. How do you think about that problem? 
What do you got? We have got 16 years before four programs take 
up 100 percent of the federal budget to solve this problem.
    Any ideas? Go in order.
    Mrs. McAuliffe. Thank you, my friend from Virginia. I would 
love to answer that question because we do know that jobs are 
the ultimate goal. That is the ultimate goal. Families want to 
provide for themselves. Families should. That is our goal.
    However, this committee is called Committee on Education 
and Workforce. We don't have a workforce to attract the jobs in 
the 21th century, if we have kids who cannot take advantage of 
the education we are providing for them, $5.5 billion in 
Virginia. So if we look at the moral imperative but there is an 
economic imperative here, as well. That is my answer.
    Anybody else? I can keep talking if you want.
    [Laughter.]
    Mr. Brat. And the economic imperative, I mean, I am newly 
elected. I have been going around to all the high schools and I 
am asking the high schoolers, senior graduating high schoolers, 
you know what a business is? Half the hands go up. I said, 
good, now put your hands way high in the air because I am going 
to ask you a question about business. Every hand goes down, 
right?
    And so business and economics, that is the imperative, but 
at the school level, what are we doing, right, to get kids 
equipped, 20, 25 percent of the kids are going go on to 4-year 
colleges. The rest are not and so food is an issue, that is an 
issue, so, I mean, I am interested in hearing some creative 
thinking on how we solve some huge education problems.
    That is our committee, to get kids ready for that workforce 
and, in the short run, I am with you. I mean, I did economic 
regression stuff on all this inputs to what creates higher SOL 
scores in Virginia for 20 years. So I know the inputs, the 
cause whatever. So, in the short run, it is an answer. In the 
long run, I don't think it is a sustainable answer.
    Mrs. McAuliffe. I would just say in the short term, I don't 
think we can afford to have hungry kids in our schools.
    Chairman Kline. Gentleman's time has expired.
    [Laughter.]
    Chairman Kline. Well, you had 7 seconds to go there.
    Mr. Courtney, you are recognized.
    Mr. Courtney. Thank you, Mr. Chairman. And thank you for 
starting sort of the opening bell here for the next 
reauthorization effort which you and I and a number of us up 
here were around for the last go around.
    And, Mr. Scott, when his opening remarks noted that this 
program was created in 1946 in the wake of World War II and it 
was the Richard Russell Defense School Nutrition Act because 
the country found to its, I think, horror, that draftees were 
malnourished, and that this was seen as a sort of effective 
national federal strategy to sort of address that issue.
    Fast forward to the last reauthorization, again, we had 
military testimony that was in those tables there, talking 
about the fact that one out of four enlistees were rejected 
because they were too heavy to serve. And the need for national 
nutritional standards was something that, again, the military 
in some ways sort of cut through a lot of the, you know, 
indecision in terms of getting a bill done.
    In 2013, five four-stars from every branch, along with 450 
of their senior military colleagues, issued a report called 
Retreat Is Not An Option, again, showing that the trend lines, 
in terms of, you know, what they are seeing coming in the door 
was still challenging and, again, I think, you know, expressed 
a pretty powerful support for maintaining the nutritional 
standards that were in the 2010 bill.
    So, Mr. Chairman, first of all, for the record, I would 
like to have Retreat Is Not An Option entered into the record.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Kline. Without objection.
    Mr. Courtney. Thank you.
    And, so, you know, obviously, there has been a lot of back 
and forth since the law was passed. I visited the school 
cafeterias. Connecticut, you know has had some struggles, you 
know, with the transition. I think Secretary Vilsack has 
listened to people, in my experience. I mean, he did make some 
adjustments as we sort of moved along.
    But I guess the question I would like to pose to Ms. 
Bauscher and Mrs. McAuliffe is, you know, on this question of 
nutritional standards. I mean, the federal taxpayer is in on 
this. We know from the, you know, the forensics of the school 
lunch program that it had a national objective. It had a 
national mission, you know, that even goes into our national 
defense, and, you know, I mean, when we talk about state 
flexibility, are we talking about basically retreating from 
what the military leadership is saying we need to maintain, or 
we are talking about, you know, maintaining standards. Anything 
can use improvement, but, again, I was just wondering what your 
association's position is.
    Ms. Bauscher. So, let me first say, SNA supported the 
Healthy Hunger Free Kids Act, and we support the Healthy Hunger 
Free Kids Act today. What we are asking for is under the most 
restrictive requirements in the law, primarily around grains 
and fruits and vegetables, some sensible flexibility that will 
allow districts to operate programs in a fiscally-sound way.
    As I mentioned, when Healthy Hunger Free Kids Act began, I 
had a 3-month operating balance. Operating balances around the 
country are used to provide program improvement. It may be 
improving the equipment that the food is prepared in and with. 
It may be improving the decor in the cafeteria so that it is an 
inviting place for students to consume healthy meals.
    Since that time through February of this year, my operating 
fund balance has decreased by 1.2 months. What that means is I 
have got 1.8 months operating balance so the--and it is mainly 
due to the increased cost of meeting the standards. And a lot 
of the food that the students don't like goes in the trash, and 
that is precious--
    Mr. Courtney. Just I want to give Mrs. McAuliffe a chance--
    Ms. Bauscher. Okay.
    Mr. Courtney.--to jump in. But I just want to tell you. If 
there is a gap in terms of, you know, the rules versus your 
operating, we want that information because, frankly, there are 
other ways to solve that problem rather than weakening 
standards.
    Mrs. McAuliffe?
    Mrs. McAuliffe. Well, I agree, and I understand that the 
difficulties of the challenges of working with pennies, 
literally pennies, nickels and dimes a day, to feed our 
children and feed them well. I think that the Retreat Is Not An 
Option analogy is absolutely spot on. We know the right thing 
to do as parents, we know what we have to teach as teachers, 
and we don't give up. We don't retreat. We figure out, we add 
creativity, we add extra work and urgency to our mission.
    I would say that it is tough but it is being done and there 
are success stories out there and I think what we are finding 
in Virginia, too, is the peer-to-peer colleagues, working 
school nutrition directors together, sharing best practices, 
looking at what works within their agricultural community and 
how are we, you know, warehousing that local hamburger meat so 
we can spend a little bit more on the local hamburger meat but, 
you know, not have to sacrifice, you know, all of our budget 
for it. I think that it all takes a lot more--it is more 
demanding on all of us but we can't retreat.
    Chairman Kline. Gentleman's time is expired.
    Mr. Grothman?
    Mr. Grothman. Thank you all for being here today. Very 
illuminating and I can see you all have a lot of enthusiasm for 
the topic.
    I am going talk a little bit to Ms. Bauscher first. You 
talked about that the problems we have of kids throwing away 
their food, and I have had people lobbying me in my office on 
that topic and I hear anecdotal evidence of that from kids in 
my district. You mentioned that you were having more success 
and your children liked the kiwis but they were expensive. You 
brought that anecdote up for a reason. Do you feel if you had 
more money, maybe put a few more of those in the fruit cups or 
whatever, we could have more kids eat the food?
    Ms. Bauscher. Again, kids like what they like and kiwi is 
one of the things that they really like and, yes, more money 
would help me provide that and potentially help them consume 
that since it includes something that they like.
    So I think that we need to stay focused on teaching kids 
the importance of consuming healthy foods. We need to continue 
to make them available in the cafeteria but, again, if I lose 
or my program reserves continue to decline and program operates 
in the red, I have to hold out my hand to my administration and 
ask them to cover my deficit, and that is occurring in more and 
more districts around the country.
    So we all recognize the critical importance of these 
programs in assuring that kids are prepared to learn and in 
moving the needle on student achievement. We want to make sure 
that all of our students are prepared for success throughout 
their lives. So these programs are critical and, you know, when 
the program goes in the red, a school potentially goes off of 
the program, we are not able to provide the support they need.
    Mr. Grothman. Certain foods. Because some of your 
statistics across the board kind of surprised me. I mean, for a 
minute, I felt I was like in the Bangladesh house of 
representatives rather than the United States House of 
Representatives, hearing we have such a crisis of hunger 
apparently in our schools.
    One of you mentioned that we have a hunger problem, kids 
zero to 5, and if there was a problem there, I would assume we 
would see it reflected in the measurements of our 5-year olds 
when they enter school. I assume we keep track of those things 
over time, you know, average weight and height of a 5-year old 
in the 2010, 2000, 1960, 1950, what have you. Do you see any 
changes over time in the size and the weight and height of our 
5-year olds?
    Ms. Bauscher. We do not collect that information in our 
program. It is possible, but the other departments within the 
district might collect that information. I think that we would 
be happy to get back to you.
    Mr. Grothman. Why don't I talk to Mr. Storen because he is 
the director of research advocacy on this stuff. I mean, some 
of us kind of wonder. Like I said, you guys have a little bit 
of a problem because we talk about this obesity epidemic and 
then we say we have this problem with all these people are 
hungry and just on first blush, they kind of are contradictory.
    So I am going to ask on something that is hard. Over a 
period of time, when we measure our 5-year olds in this 
country, do we see a change in height or a change in weight 
before the system is able to get ahold of them?
    Mr. Storen. Yes, I don't have those data available. I would 
be happy to try to get back to try to get back to you. What I 
do know is that the program WIC which is designed to help those 
children ages zero to 5, there is a strong body of evidence 
about the positive health impacts when kids do participate in 
it. And I know about half of all babies in the United States do 
participate in that program, so.
    Mr. Grothman. But we don't collect data on that, okay.
    Mrs. McAuliffe. May I comment on that--could I--
    Mr. Grothman. Go ahead. No, sure.
    Mrs. McAuliffe. The point about obesity I think is a really 
big part of the conversation. Obesity, I view it as hunger in 
many ways because it is hunger for the right type of food. It 
is malnutrition. In Virginia, we have 17 percent of our 
families living in food deserts. And so that is why if school 
meals are consistently often the best and most consistent meal 
for children, I think it is imperative on us to make sure that 
we are doing the best that we can in terms of food quality, as 
well as access.
    Mr. Grothman. I will give you another thing to think about 
and any of you can respond to this. A while back I read 
something dealing with some of these food programs and that we 
are kind of--it used to be it was important for kids to sit 
around the dinner table at night and I think it is kind of an 
important thing to sit around the breakfast table in the 
morning. And, as time goes on, it becomes more--where we are 
sending a message to parents that is more of the government's 
concern and not their concern.
    Does that concern you at all insofar as, you know, we are 
kind of taking away a role that has maybe been the most basic 
role the parents probably throughout all of history in kind of 
saying that, you know, providing breakfast for your kids, 
providing dinner for your kids or during summer periods, that, 
you know, we are beginning to change the nature of life in that 
we begin to make it more of a government thing than a family 
thing. Does that--
    Chairman Kline. I am sorry; the gentleman's time has 
expired.
    Mr. DeSaulnier, I think you are up.
    Mr. DeSaulnier. Thank you, Mr. Chairman. Thank you, and the 
ranking member for bringing this up.
    I want my comments in the context of somebody who has spent 
35 years in the food service industry and is sympathetic to the 
comments by Ms. Bauscher. I know running restaurants, you 
couldn't make customers eat food that they didn't want to and 
pay for it, so. And having been a single parent, I understand 
the challenges in getting kids to eat what is good for them. 
But we have to separate food from nutrition and we started to 
just hit on this, so.
    I want to talk about the overall context. So I was an 
author of one of the first local government menu labeling 
bills, in spite of the fact of being in the restaurant business 
in California. I was the co-author of the first state's menu 
labeling bill in the United States in California with a L.A. 
colleague. That has been in effect for about 8 years now, and 
we did that in response to the Center for Disease Control 
declaring a national epidemic when it came to obesity in 
America.
    America has the second highest obesity rate in the world. 
We spend almost $200 billion a year on public health 
consequences for obesity, and where it has most impacted is 
amongst young people. So the way to do it is collectively and 
then most of it is around education. So menu labeling was 
letting parents know you are busy, you have to go through the 
drive in at Taco Bell but you can see the menu is changing now 
in fast food restaurants. You can see McDonald's now actually 
promoting to their investors that they are changing.
    So, in that context, I always thought that this was the 
best investment the federal government could do, and along with 
education. Not telling parents or kids they have to eat it 
because they won't unless they know it is good for them. And 
then we know from a nutritional standpoint that your palate 
changes and adjusts.
    And in terms of spoilage in California, what we found is 
that we have actually reduced spoilage when we use fresh 
ingredients. So in California, I know we are weird and we are 
different, but 66 percent of Republicans and 87 percent of 
Democrats in a recent Pew Charitable Trust poll said that they 
supported the current standards.
    So in the context of my colleague from Virginia talking 
about cost, I view this as an investment. We change the cost 
curve when we invest in letting kids know that they can grow 
healthy foods in their school gardens, they can go in the 
kitchen afterschool programs and Dr. Krey and Mrs. McAuliffe's 
overall question is in regards to larger context, directed at 
Mrs. McAuliffe and if Dr. Krey wants to jump in there.
    And then the secondary thing is intercession, summer school 
loss, both cognitively and nutritionally, and what a difference 
it makes for poor kids. So those are the two sort of general 
questions in terms of cost avoidance in investment in a broad 
scale, not just in this program, and to agree with education. 
That the best way to gets kids and parents to invest in good 
nutrition is to educate them to the cost in the long term, both 
cognitively and nutritionally.
    Ms. McAuliffe?
    Mrs. McAuliffe. Sorry, I lost track of--I am sorry about 
the question; I heard every single thing you said--
    Mr. DeSaulnier. So the overall question is, in the context, 
in California, we did it across the board. We wanted to educate 
parents, we wanted to educate adults about the obesity--the 
consequences of that, and I wonder if you are doing that in 
Virginia.
    Mrs. McAuliffe. I think that, you know, schools, local 
programs are doing things differently in their own way. But, 
yes, I think that part--when you are talking about nutrition 
curriculum, you are talking about educating the next generation 
but there is always a piece about taking these conversations 
home, talking to parents. And I think that parents--many 
schools are inviting parents in as part of the, you know--we 
have heard of nights where everybody eats in the cafeteria at 
night to introduce some of the new foods as they go along with 
the guidelines.
    So I think that is absolutely, you know--schools are 
definitely a partnership, students, parents and teachers. And 
that partnership has to remain strong always and it is 
definitely an imperative part of this conversation.
    Mr. DeSaulnier. So, Dr. Krey, just to follow up on the 
intercession of summer school loss, you said it is not just for 
students' health but for the learning loss, up to half of that 
learning loss happens during the summer. Could you extrapolate 
on that a little bit, just briefly?
    Ms. Krey. Certainly, certainly. We know from studies that 
there are social, emotional and behavioral problems associated 
with being food insecurity and micronutrient deficiencies, 
cognitive delays and so when we look at child nutrition 
programs, that is one reason why summer is such a difficult 
period because it is regular, sustained access to nutritious 
meals that help prevent a lot of those deficiencies that I have 
talked about, and enable students to stay on track and to 
continue to be prepared to learn.
    Mr. DeSaulnier. I want to yield back the remainder of the 
time I have.
    Chairman Kline. You also are my hero.
    [Laughter.]
    Mr. Allen?
    Mr. Allen. Thank you, Mr. Chairman. And I am having one of 
those days where I have got two of these going on at the same 
time. In fact, we were talking about nutrition over at Ag, and 
the food bank process and how that is working coordinating with 
the SNAP program.
    But I represent Georgia's 12th district where roughly 31 
percent of children have limited or uncertain access to 
adequate nutritious food. These kids come from great families 
but, because of economic times, you know, they struggle to make 
ends meet living paycheck to paycheck.
    We all know how important child nutrition is and I thank 
you for your work in that area. And, you know, our school food 
programs ensure that kids have access to the foods.
    Dr. Krey, you state in your testimony that 19.5 percent of 
American households with children are food insecure. Can you 
discuss what being food insecure means and how that impacts 
children specifically?
    Ms. Krey. Certainly. So food insecurity is a broad term so 
it captures both outright hunger and the coping mechanisms that 
households use to avoid it. So it refers to a lack of food 
access based on resources. It is a household situation so it 
affects everyone in a household but it can affect them 
differently, and it is a year-long measure. So we know that 
food insecurity can be episodic and cyclical, giving other 
factors that put people at risk.
    And we know from a lot of studies that food insecure 
individuals have worse health and educational outcomes than 
food secure households. It has been well documented, and we 
know that households suffering from food insecurity are more 
likely to have children, which is what makes it a larger 
concern. And we know that when children live in food insecure 
households, they are more likely to have disrupted eating 
patterns and diets and we know the link that we have talked 
about between good nutrition and children's health development 
and learning.
    Mr. Allen. Good. Thank you.
    I recently saw a poll that indicated about 93 percent of 
parents in Georgia think school food service should serve a 
fruit and vegetable on every meal. For example, in Burke County 
in my district, they are having a lot of success with the Farm-
to-School program serving locally-grown collard greens, one of 
my personal favorites, along with sweet potatoes, cabbage, 
broccoli and other favorites, strawberries, whole grain grits 
and, because we are a big blueberry area now, and with, you 
know, mixing that with whole wheat flour and local products. Do 
you think programs like Farm-to-School or Smarter Lunchrooms 
have been helpful, and how can we grow that program?
    Ms. Bauscher. Donna Martin, who is the director in your 
area--
    Mr. Allen. Yes.
    Ms. Bauscher.--is a wonderful success story and we tap her 
all the time to share her successes and her recipes with 
members to inspire them.
    I think Farm-to-School programs are very important. Many, 
many school food authorities have Farm-to-School programs or 
school garden programs. To Mrs. McAuliffe's point earlier, it 
is important that kids learn where food comes from. And when 
kids are actively involved in growing and harvesting food, they 
are more likely to consume it and generally consume more.
    One of the programs we haven't touched on today at all is 
the Fresh Fruit and Vegetable Program, available in schools 
with high at-risk students. I have got 30 of my schools that 
participate in that program. It includes a nutrition education 
component and we work through that program to teach children 
where their food comes from, why it is healthy for them, and, 
anecdotally, I know that in schools that participate in that 
program, they choose and consume more fruits and vegetables 
with their meal.
    The unfortunate part is that program is not available to 
all school food authorities. So it is a wonderful program that 
not only provides nutrition education but, again, encourages 
kids to consume healthier fruits and vegetables.
    Mr. Allen. How can we make that more available? Is there 
just the rural versus urban--
    Ms. Bauscher. Well, it currently is only available in areas 
where at least 50 percent of the--
    Mr.Allen. Right.
    Ms. Bauscher.--students qualify for free or reduced meals.
    Mr. Allen. I got you.
    Ms. Bauscher. So making programs like that more accessible, 
you--because even a lot of our paid-students need to learn 
where their food comes from, so making it more widely available 
would support the current requirement.
    Mr. Allen. Good. Yes, Donna did share a lot of this 
information with me and I am very appreciative of her efforts, 
as well.
    Mr. Chairman, I yield back the remainder of my time.
    Chairman Kline. Thank you, gentleman. Another hero.
    Mr. Polis?
    Mr. Polis. Thank you, Mr. Chairman.
    Last week in Colorado I got to visit the school nutrition 
services at Poudre School District in my district, which serves 
schools in Fort Collins area. And at Poudre School District 
they serve healthy, often locally-grown fruits and vegetables 
to students as part of their Farm-o-School initiative. The 
leaders of this school nutrition service at PSD are thrilled 
with upgrading the federal regs. In fact, due, in fact, part to 
whole grains, they have been able to attract 10 percent more 
families back to opt in to the district lunch program.
    As an example of what they are serving then, they put their 
menu and recipes up at PSDSchools.nutraslice.com, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="98c8cbdccbcbfbf0f7f7f4ebd8f6edeceaf9ebf4f1fbfdb6fbf7f5b6">[email&#160;protected]</a> Today, they are serving a General 
Tso chicken and steamed broccoli. Yesterday was lasagna with 
veggies, rotini with roasted spring veggies, and chicken, and 
steamed vegetables.
    They have really found that offering healthy and nutritious 
food in excess of the federal nutrition standards actually 
helps pull families back into participating, which improves the 
economic viability of their paid lunch program and, of course, 
as well through scale, their free and reduced lunch program. 
They are very excited about bringing healthier foods to 
students and helping instill positive eating habits in schools.
    Another school district in Boulder Valley School District 
in my district in Colorado, working with Chef Ann Cooper and 
the Ann Cooper Foundation, has implemented a large-scale food 
change. As Chef Ann Cooper says, who is the head of nutrition 
food services for Boulder Valley School District, she says, ``I 
envision a time soon when being a chef working to feed children 
fresh, delicious and nourishing food will no longer be 
considered renegade.''
    Mrs. McAuliffe, I was wondering if you could talk more 
about initiatives like those in Poudre School District and 
Boulder Valley School District and others that can be 
replicated and encouraged through a reauthorization of the 
child nutrition act?
    Mrs. McAuliffe. Thank you, I appreciate that. The 
connection between where our food comes from, what we are 
putting in our bodies, it matters. There is a growing demand 
for that in this country, both in our schools but in our 
community at large it is important. We see those demands 
growing.
    Andrea--I have to give a shout out to one of our lead 
school nutrition directors, Andrea Early in Harrisonburg City 
Schools, who is a national leader on Farm-to-School, and what 
she has done is brought in the ag extension program, the 
agricultural community, and brought in Farmer Joe to talk about 
lettuce when we introduce the school with the salad bar at 
school.
    So this community garden piece, the Farm-to-School piece, 
it is so critical to connecting in a real live way, a tangible 
way to get kids excited about how does Farmer Joe grow his 
lettuce. And Farmer Joe is really fun to listen to, and I think 
I will try his lettuce because it is on a salad bar today.
    So that connection between where your food comes from and 
making it very real is really critical to success of these 
programs.
    Mr. Polis. And, again, one of the things that our school 
districts have found that is contrary to some of the testimony 
from the others is, by increasing nutrition standards, they 
actually got more families to participate in the lunch program.
    I would also like to highlight a non-profit in my district 
called the Kitchen Community that has an approach to school 
gardens where kids actually grow their own food and it can 
provide 1 or 2 or 3 days' worth of nutrition. Both Boulder 
Valley School District and Poudre School District have 
implemented salad bars in every school, as well as vegetarian 
options.
    These are the kinds of things that, if more districts did, 
and I wanted to address this to Ms. Bauscher, why aren't more 
districts doing this kind of thing on their own? Why are we 
even forced to talk about it here? Obviously, we are a big 
funder of this. Why aren't districts like ours getting more 
families to participate by launching salad bars, by making sure 
they have vegetarian options as more and more kids want them?
    Ms. Bauscher. First, let me say that a lot of districts are 
offering salad bars and more vegetarian options, but school 
food authorities are as diverse as your Congressional 
districts; not all school food authorities have the resources 
to do that. Salad bars, for example--
    Mr. Polis. Well, reclaiming my time, but our districts have 
found is that they have more resources when they offer these 
things--
    Ms. Bauscher. And--
    Mr. Polis.--because families that have not participated in 
the school lunch program because the kids are vegetarian or the 
family wants food from a salad bar, they are the ones that are 
opting in, giving the school districts more resources along 
with it. And I think that is what we can accomplish nationally 
to improve the viability and the efficiency of school lunch 
programs across the country.
    And I think that is what we can do by raising the federal 
bar, and I hope that we renew our commitment to healthy and 
nutritious school lunches across the country, which I think is 
consistent with the fiscal viability that you indicated in your 
testimony.
    And I yield back the balance of my time.
    Chairman Kline. I thank the gentleman for yielding back his 
time, however how much of it had expired.
    I now recognize the ranking member for any closing remarks 
that he may have.
    Mr. Scott. Thank you, Mr. Chairman.
    I think this has been a great hearing. We have heard about 
the importance of nutritious meals. It is a national security 
interest because 25 percent of our young people are obese and 
can't even enlist in the military. It has other long-term 
health effects. We have heard about the correlation between 
academic achievement, including behavior, and attendance with 
good nutrition.
    And so our reauthorization has to make sure we continue the 
programs and also recognize that nutritious meals actually cost 
more. Federal standards are important. It has been pointed out 
that 93 percent of our schools are in compliance so they can't 
be that unreasonable.
    We have heard a lot about unnecessary paperwork that needs 
to be addressed, and the summer availability. We have seen a 
lot of studies that showed that a significant portion of the 
achievement gap is due to regression during the summer.
    So I look forward to the authorization and, in the 
meanwhile, Mr. Chairman, I ask unanimous consent to enter into 
the record the Harvard study from last year showing that more 
students eating fruits and vegetables. Another one from the 
University of Connecticut this year showing that students are 
eating more fruit and no increase in plate waste. And one from 
last year, a Robert Wood Johnson Foundation study on students 
accepting and liking the school food under the new standards, 
and no increase in plate waste. And a letter from the Academy 
of Nutrition and Dietetics on the importance of the school 
programs. And one from the National WIC Association with the 
significant recommendations on how we can improve nutrition.
    [The information follows:]
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
     
    Chairman Kline. Without objection, we will include them 
all.
    Mr. Scott. Thank you.
    Chairman Kline. Gentleman yields back.
    I want to add my thanks to all of you, a great panel. It 
really has been very informative. We are dealing with I think 
sometimes a very confusing subject.
    Mr. Grothman brought this notion up in his questions when 
he talked about, wait a minute, we talking about obesity here 
or we talking about hunger, we talking about malnutrition, we 
talking about wealthy schools, poor schools. We are talking 
about all of these things and it hard to get the policy right. 
This is a first and important step.
    One of my colleagues said, well, it is okay for some 
wealthy schools to drop out because this isn't about wealthy 
schools. Wealthy schools have poor kids, as well. And this 
isn't just about poor kids and wealthy kids; this is about all 
of our kids.
    So we have got a pretty big job. I very much appreciate the 
input that all of you had. I have been sitting here 
contemplating what a whole grain tortilla would actually taste 
like and I am guessing not that good. So we have got our work 
cut out for us; we are eager to do it. We very much appreciate 
your help here today.
    There being no further business, committee stands 
adjourned.
    [Additional submission by Ms. Krey follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    [Additional submission by Mr. Scott follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    [Additional submission by Ms. Wilson follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    [Questions submitted for the record and their responses 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Dr. Krey response to questions submitted for the record 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Mrs. McAuliffe response to questions submitted follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    [Mr. Storen response to questions submitted follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    [Ms. Bauscher response to questions submitted follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    [Whereupon, at 12:05 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
